    Semiannual
      Report to
      Congress
October 1, 2011–March 31, 2012
                  OIG-CA-12-005


     Office of Inspector General
    Department of the Treasury
Highlights
During this semiannual reporting period, our Office of Audit issued 47 products and our Office of
Small Business Lending Fund (SBLF) Program Oversight issued 2. Work by our Office of Investigations
resulted in 18 arrests and 21 convictions. Some of our more significant results for the period are
described below.
• We identified deficiencies related to the Bureau of Engraving and Printing’s planning and
   production oversight over the NexGen $100 notes. The bureau did not (1) perform necessary and
   required testing to resolve technical problems before starting full production of the NexGen
   $100 notes, (2) implement comprehensive project management over the $100 note program, or
   (3) adequately complete a comprehensive cost-benefit analysis for the disposition of the
   approximately 1.4 billion finished NexGen $100 notes already printed but not accepted by the Board
   of Governors of the Federal Reserve System.
• KPMG LLP, under contract with our office, issued an unqualified opinion on the Department of
   the Treasury’s fiscal year 2011 financial statements. The auditors reported a material weakness
   related to financial systems and reporting at the Internal Revenue Service and significant deficiencies
   related to (1) financial reporting practices at the Departmental level, (2) financial accounting and
   reporting at the Office of Financial Stability, and (3) information systems controls at the Financial
   Management Service.
• Our Office of SBLF Program Oversight identified that certain approved financial institutions had
   significant supervisory issues. The issues could restrict these financial institutions from meeting their
   financial obligations to the SBLF program. Accordingly, these financial institutions require enhanced
   monitoring by Treasury.
• We reported that instead of costing taxpayers $1.26 billion as originally estimated, Treasury projects
   that the SBLF program will generate a savings of $0.08 billion, representing a $1.34 billion decrease
   from the initial cost estimate. The decrease is due to lower-than-expected (1) participation volumes,
   (2) default rates, and (3) market interest rates. However, we noted that in revising the cost estimate
   Treasury did not adequately consider the impact that supervisory concerns and historical retained
   earnings may have on the ability of institutions to pay dividends and repay their investment to
   Treasury. We recommended additional considerations for future re-estimates.
• Our Office of Investigations conducted a joint investigation with the Federal Bureau of
   Investigation that resulted in the arrest of a computer programmer for stealing proprietary code
   from the Federal Reserve Bank of New York. The individual was a contract employee assigned to
   work on further developing a software system owned by Treasury.
• A Mint Police Officer arrested by Office of Inspector General special agents pled guilty and was
   sentenced in U.S. District Court to making false statements in connection to workers compensation
   claims by which he defrauded the federal government of over $173,000.



             Treasury Office of Inspector General Semiannual Report—March 2012                           i
Message From the Inspector General
I am pleased to provide our semiannual report for March 31, 2012. Over the past 6 months, my office
continued to focus on Treasury programs and responsibilities under our jurisdiction that have been put
in place to address the Nation’s efforts to recover from the financial crisis and move forward. We have
also completed a substantial body of mandated work related to the Department’s financial reporting,
efforts to reduce improper payments, and information security.

In past messages, I discussed how mandated work resulting from bank failures impacted my office’s
ability to undertake other work. As the rate of bank failures has dropped, we are now providing
oversight to a broader range of Treasury programs and operations and have been able to respond to
emerging issues. For example, we recently completed a review of Treasury’s consultative role in the
$535 million loan guarantee made to Solyndra.

At Treasury’s request, we also completed a review of manufacturing problems at the Bureau of
Engraving and Printing. Those problems led to the halted production and delay in issuing the NexGen
$100 note originally planned for release in February 2011. While the bureau estimates that less than
1 percent of the 1.4 billion notes produced are flawed, neither an exact error rate nor the cost-benefit of
various disposal options had been determined. We also reported that necessary testing was not done
before starting full production and comprehensive project management had not been implemented.

Our Office of Small Business Lending Fund (SBLF) Program Oversight completed two reviews, one
addressing the cost estimate for the SBLF program and the second addressing the soundness of early
investment decisions. We found that Treasury did not adequately consider how supervisory concerns
about participant management and historical retained earnings could impact repayment assumptions
used to estimate the cost of the SBLF program. In regard to the soundness of early investment
decisions, we noted weaknesses that raise questions about whether Treasury negotiated an effective
supervisory consultative process, considered sufficient information, and consistently implemented its
investment decision process. I noted in my last semiannual report that the Office was evaluating the
$1.5 billion State Small Business Credit Initiative, which provides federal funds to states for programs
that support lending to small businesses. Since that time we have all but completed a review of one
participating state where we have identified misuse of funds, and have reviews of three additional states
in progress.

The Council of Inspectors General on Financial Oversight (CIGFO), established by the Dodd-Frank
Wall Street Reform and Consumer Protection Act (Dodd-Frank), which I chair, continues to serve as an
important means for the Inspectors General of the financial regulatory agencies to share information.
During the period, through its Dodd-Frank authority, CIGFO convened its first working group under
the leadership of the Federal Deposit Insurance Corporation Inspector General. The working group is
examining the controls and protocols that the Financial Stability Oversight Council (FSOC) and its
member agencies have in place to ensure that FSOC-collected information, deliberations, and decisions


             Treasury Office of Inspector General Semiannual Report—March 2012                           ii
                                                              Message From the Inspector General

are properly safeguarded from unauthorized disclosures. This work is expected to be completed by June
2012. Through working groups, CIGFO provides an important source of independent oversight of
FSOC.

With respect to examples of our mandated work, independent auditors under contract with our office
completed the audit of the Department’s fiscal year 2011 consolidated financial statements as well as
audits of other Treasury components and issued clean audit opinions. While clean audit opinions have
become seemingly routine at Treasury, the work required by the Department and the auditors to ensure
accurate financial reporting to the public is anything but “routine.” Also, as a new requirement, we
issued our first report on Treasury’s implementation of the Improper Payments Elimination and
Recovery Act (IPERA). We found that Treasury was not in compliance with IPERA due to deficiencies
with the Internal Revenue Service’s improper payments reporting for the Earned Income Tax Credit
program. These deficiencies were identified by the Treasury Inspector General of Tax Administration.
Furthermore, we completed the first in a series of Congressionally directed reviews of the Financial
Crimes Enforcement Network’s efforts to modernize its Bank Secrecy Act database. We reported that
the agency had made a good business case for the $120 million program and was on schedule and within
cost, but the effort will require continued attention to ensure successful completion.

The Office of Investigations continues to work significant criminal, civil, and administrative cases that
protect the Department’s programs and operations, with an emphasis on those that attempt to
financially defraud Bureaus or Departmental Offices. My employees have focused on investigating and
eradicating improper payments, bringing to justice those that selfishly defraud the banking system using
their positions for personal gain, and recovery/prevention of those attempting to swindle funds from
the Payments for Specified Energy Property in Lieu of Tax Credits Program.

On March 7, 2012, I testified before the Treasury’s House Appropriations Subcommittee along with my
colleague, the Honorable J. Russell George, the Treasury Inspector General for Tax Administration. I
provided the Subcommittee members an overview of Treasury’s program and operations that my office
oversees and my perspective on the management and performance challenges in administering those
programs and operations. Among other topics, my testimony stressed that a relatively small number of
Treasury employees outside the Internal Revenue Service perform the widely diverse, and very complex
functions that make up the responsibilities of the Department of the Treasury that are so critical to our
Nation.

In closing, I would like to express my appreciation for the high level of cooperation and responsiveness
by Treasury’s senior leadership to my office and its work. I would also like to acknowledge the
employees of the Treasury Office of Inspector General for their dedication, professionalism, and
excellence in everything they do.



Eric M. Thorson
Inspector General


                  Treasury Office of Inspector General Semiannual Report—March 2012                     iii
Contents
Highlights ..................................................................................................................................... i 
Message From the Inspector General ...................................................................................... ii 
Office of Inspector General Overview ...................................................................................... 1 
Treasury’s Management and Performance Challenges .......................................................... 2 
Office of Audit - Significant Audits and Other Products ........................................................ 8 
       Financial Management .................................................................................................................................8 
       Programs and Operations ..........................................................................................................................11 
           Information Technology .........................................................................................................................11 
           Failed Bank Reviews .............................................................................................................................12 
           Other Banking-Related Work .................................................................................................................16 
           Other Performance Audits .....................................................................................................................16 
Office of SBLF Program Oversight – Significant Audits and Other Products .................... 21 
Office of Investigations - Significant Investigations ............................................................. 23 
Other OIG Accomplishments and Activity ............................................................................. 27 
Statistical Summary ................................................................................................................. 29 
       Summary of OIG Activity ............................................................................................................................29 
       Significant Unimplemented Recommendations ..........................................................................................29 
       Summary of Instances Where Information Was Refused ...........................................................................31 
       Listing of Audit Products Issued .................................................................................................................32 
       Audit Reports Issued With Questioned Costs ............................................................................................36 
       Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................36 
       Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................37 
       Significant Revised Management Decisions ..............................................................................................37 
       Significant Disagreed Management Decisions ...........................................................................................37 
       Peer Reviews .............................................................................................................................................37 
Bank Failures and Nonmaterial Loss Reviews ...................................................................... 39 
References to the Inspector General Act ............................................................................... 41 
Abbreviations ............................................................................................................................ 42 




                   Treasury Office of Inspector General Semiannual Report—March 2012                                                                           iv
This page intentionally left blank.
                                                       The Office of Investigations, under the
Office of Inspector General                            leadership of the Assistant Inspector General
Overview                                               for Investigations, performs investigations and
                                                       conducts initiatives to detect and prevent fraud,
The Department of the Treasury’s Office of             waste, and abuse in Treasury programs and
Inspector General (OIG) was established                operations under our jurisdiction. It also
pursuant to the 1988 amendments to the                 manages the Treasury OIG Hotline to facilitate
Inspector General Act of 1978. OIG is headed           reporting of allegations involving Treasury
by an Inspector General appointed by the               programs and activities.
President, with the advice and consent of the
Senate.                                                The Office of SBLF Program Oversight, under
                                                       the leadership of a Special Deputy Inspector
OIG performs independent, objective reviews            General, conducts, supervises, and coordinates
of Treasury programs and operations, except            audits and investigations of the SBLF and State
for those of the Internal Revenue Service (IRS)        Small Business Credit Initiative (SSBCI).
and the Troubled Asset Relief Program (TARP),
and keeps the Secretary of the Treasury and            The Office of Counsel, under the leadership of
Congress fully informed of problems,                   the Counsel to the Inspector General, provides
deficiencies, and the need for corrective action.      legal advice to the Inspector General and all
The Treasury Inspector General for Tax                 OIG components. The office represents the
Administration (TIGTA) performs oversight              OIG in all legal proceedings and provides a
related to IRS. A Special Inspector General and        variety of legal services including (1) processing
the Government Accountability Office perform           all Freedom of Information Act and Giglio
oversight related to TARP.                             requests; (2) conducting ethics training;
                                                       (3) ensuring compliance with financial
OIG has five components: (1) Office of Audit,          disclosure requirements; (4) reviewing proposed
(2) Office of Investigations, (3) Office of Small      legislation and regulations; (5) reviewing
Business Lending Fund (SBLF) Program                   administrative subpoena requests; and
Oversight, (4) Office of Counsel, and (5) Office       (6) preparing for the Inspector General’s
of Management. OIG is headquartered in                 signature, cease and desist letters to be sent to
Washington, D.C., and has an audit office in           persons and entities misusing the Treasury seal
Boston, Massachusetts.                                 and name.

The Office of Audit, under the leadership of the       The Office of Management, under the
Assistant Inspector General for Audit, performs        leadership of the Assistant Inspector General
and supervises audits, attestation engagements,        for Management, provides services to maintain
and evaluations. The Assistant Inspector               the OIG administrative infrastructure.
General for Audit has two deputies. One is
primarily responsible for performance audits,          As of March 31, 2012, OIG had 175 full-time
and the other is primarily responsible for             staff. Eleven of those staff work for the Office
financial management, information technology           of SBLF Program Oversight and are funded on
(IT), and financial assistance audits.                 a reimbursable basis. OIG’s fiscal year 2012
                                                       appropriation is $29.6 million.

                  Treasury Office of Inspector General Semiannual Report—March 2012                      1
                                                        companies. FSOC also has the authority to
Treasury’s Management and                               designate nonbank financial companies for
Performance Challenges                                  consolidated supervision and to recommend
                                                        heightened standards. As of the date of the
In accordance with the Reports Consolidation            Inspector General’s memorandum, FSOC was
Act of 2000, the Treasury Inspector General             still in the process of establishing the
annually provides the Secretary of the Treasury         framework for identifying systemically
with our perspective on the most serious                significant nonbank financial institutions. 1
management and performance challenges facing
the Department. In a memorandum to Secretary            The Council of Inspectors General on Financial
Geithner dated October 24, 2011, Inspector              Oversight (CIGFO), chaired by the Treasury
General Thorson reported four management                Inspector General, was also established by
and performance challenges. The following is an         Dodd-Frank and is an important source of
abridged version of that memorandum.                    independent, unbiased analysis to FSOC. As
                                                        required, CIGFO issued its first annual report
Transformation of Financial Regulation                  in July 2011. That report discussed current and
                                                        pending joint projects of CIGFO members and
Enacted in July 2010, the Dodd-Frank Wall               CIGFO’s conclusion that FSOC had either met
Street Reform and Consumer Protection Act               or is on target to meet all requirements to date.
(Dodd-Frank) established a number of new                In the future, CIGFO anticipates establishing a
responsibilities for Treasury and the Secretary.        working group to oversee the process of
                                                        designating systemically important nonbank
For example, Dodd-Frank created the Financial           financial institutions for heightened prudential
Stability Oversight Council (FSOC), chaired by          supervision.
the Treasury Secretary, whose mission is to
identify risks to financial stability that could        Dodd-Frank also established two new offices
arise from the activities of large, interconnected      within Treasury: the Office of Financial
financial companies; respond to any emerging            Research and the Federal Insurance Office. The
threats to the financial system; and promote            Office of Financial Research is to be a data
market discipline. As required, FSOC issued its         collection, research, and analysis arm of FSOC.
first annual report in July 2011. The report            The Federal Insurance Office is charged with
contained recommendations to (1) heighten risk          monitoring the insurance industry, including
management and supervisory attention in                 identifying gaps or issues in the regulation of
specific areas, (2) further reforms to address          insurance that could contribute to a systemic
structural vulnerabilities in key markets, (3) take     crisis in the insurance industry or financial
steps to address reform of the housing finance          system. We are currently reviewing the
market, and (4) ensure interagency coordination         Department’s progress in standing up the
on financial regulatory reform. This is an              Office of Financial Research and our future
important early step, but FSOC still has work
ahead to meet all of its responsibilities. In this      1 As an update, FSOC released its final regulation
regard, Dodd-Frank calls for the consolidated           establishing a framework on April 3, 2012,
supervision and heightened prudential standards         (12 CFR Part 1310, Authority to Require Supervision and
                                                        Regulation of Certain Nonbank Financial Companies).
for large, interconnected nonbank financial

                   Treasury Office of Inspector General Semiannual Report—March 2012                          2
                                                    Treasury’s Management and Performance Challenges

work plans include a review of the Federal                     high asset concentrations in commercial real
Insurance Office.                                              estate and overreliance on unpredictable
                                                               wholesale funding to fund growth.
Intended to streamline the supervision of
depository institutions and holding companies,                 Management of Treasury’s Authorities
Dodd-Frank transferred the powers and duties                   Intended to Support and Improve the
of the Office of Thrift Supervision (OTS) to the
Office of the Comptroller of the Currency
                                                               Economy
(OCC), the Board of Governors of the Federal                   Congress provided Treasury with broad
Reserve System (FRB), and the Federal Deposit                  authorities to address the financial crisis under
Insurance Corporation (FDIC) effective July 21,                the Housing and Economic Recovery Act
2011. As was also required by the act, we and                  (HERA) and the Emergency Economic
the OIGs of FDIC and FRB completed two                         Stabilization Act (EESA) enacted in 2008, the
reviews on the transfer during 2011. The first                 American Recovery and Reinvestment Act of
review reported on the planning for the transfer               2009 (Recovery Act), and the Small Business
and the second review reported on the status of                Jobs Act of 2010. Certain authorities in HERA
the transfer 6 months later. The reviews found                 and EESA have now expired but challenges
that the planning was generally adequate and                   remain in managing Treasury’s outstanding
that transfer activities occurred as planned.                  investments. To a large extent, Treasury’s
However, we also reported on items that were                   program administration under these acts has
still “works-in-progress.”                                     matured. However, investment decisions
                                                               involving the Small Business Jobs Act programs
The other regulatory challenges that we                        have only recently been completed.
discussed in the previous year’s memorandum
still remained. Specifically, since September                  Management of the SBLF and SSBCI
2007, 113 Treasury-regulated financial
institutions failed, with estimated losses to the              Enacted in September 2010, the Small Business
Deposit Insurance Fund (DIF) of about                          Jobs Act of 2010 created the $30 billion SBLF
$36.3 billion. 2 Although many factors                         within Treasury and provided $1.5 billion to be
contributed to the turmoil in the financial                    allocated by Treasury to eligible state programs
markets, our work found that OCC and the                       through the SSBCI. Both programs were slow
former OTS often did identify unsafe and                       to disburse funds to intended recipients, with
unsound practices by numerous failed                           Treasury approving the majority of SBLF and
institutions under their respective supervision,               SSBCI applications during the last quarter of
but did not force timely correction. The                       fiscal year 2011. Now that Treasury has
irresponsible lending practices of many                        completed the approval process for these two
institutions are now well-recognized. At the                   programs, the challenge will be to exercise
same time, many of the failed banks also                       sufficient oversight to ensure that funds are
engaged in other high-risk activities, including               used appropriately by participants, SBLF
                                                               dividends owed Treasury are paid, and that the
2 As an update, as of March 31, 2012, 118 Treasury-
                                                               programs achieve intended results.
regulated financial institutions have failed with about
$35 billion in estimated losses to the DIF.


                      Treasury Office of Inspector General Semiannual Report—March 2012                        3
                                                   Treasury’s Management and Performance Challenges

With regard to SBLF, Treasury disbursed more                   determining whether participating states have
than $4 billion to 332 financial institutions. Of              fulfilled their oversight responsibilities.
the institutions funded, 42 percent were
institutions that used their SBLF investment to                Management of Recovery Act Programs
refinance securities issued under the TARP
Capital Purchase Program. Institutions receiving               Treasury is responsible for overseeing an
investments under the SBLF program are                         estimated $150 billion of Recovery Act funding
expected to pay dividends to Treasury at rates                 and tax relief. Treasury’s oversight
that will decrease as the amount of qualified                  responsibilities include programs that provide
small business lending the institution increases.              payments for specified energy property in lieu
The dividends are non-cumulative, meaning that                 of tax credits, payments to states for low-
institutions are under no obligation to make                   income housing projects in lieu of tax credits,
dividend payments as scheduled or to pay off                   grants and tax credits through the Community
previously missed payments before exiting the                  Development Financial Institutions Fund
program. That said, there are provisions for                   (CDFI Fund), economic recovery payments to
increased restrictions as dividends are missed.                social security beneficiaries and others, and
                                                               payments to U.S. territories for distribution to
As of September 27, 2011, 53 states, territories,              their citizens.
and eligible municipalities (participating states)
had applied for $1.5 billion in SSBCI funding.                 It is estimated that Treasury’s Recovery Act
Of the participating states, 31 received their first           payments in lieu of tax credit programs, for
funding allocations of approximately                           specified energy property and to states for low-
$0.3 billion. 3 Under SSBCI, participating states              income housing projects, will cost more than
may obtain funding for programs that partner                   $20 billion over their lives. To date, Treasury
with private lenders to extend credit to small                 has awarded approximately $13 billion under
businesses. A key feature is that participating                these programs. 4 We conducted a number of
states receive their allocations in one-third                  audits of recipients of payments under the
increments. Treasury may withhold a successive                 specified energy property program to determine
increment to a state pending the results of an                 whether funds were properly awarded to eligible
audit by our office. Primary oversight of the use              applicants for eligible properties. We have
of SSBCI funds is the responsibility of each                   found some questionable claims involving
participating state. Treasury will face challenges             several million dollars in total. We plan to
in holding states accountable for the proper use               continue our work in this area and will report
of funds as it has not, among other things,                    any major instances of program abuse as
clearly defined the oversight obligations of                   necessary.
states or specified minimum standards for
                                                               Management of the HERA and EESA

3As an update, as of March 31, 2012, 58 states, territories,   Under HERA, Treasury continues to address
and eligible municipalities applied for $1.5 billion in        the distressed financial condition of Fannie Mae
SSBCI funding. Of the 55 participating entities that have
been approved to-date, 51 received their first and/or
second funding allocations, totaling approximately             4As an update, as of April 6, 2012, Treasury awarded
$477 million.                                                  approximately $16.7 billion under these programs.


                      Treasury Office of Inspector General Semiannual Report—March 2012                               4
                                                Treasury’s Management and Performance Challenges

and Freddie Mac which are under the                         Anti-Money Laundering and Terrorist
conservatorship of the Federal Housing Finance              Financing/Bank Secrecy Act Enforcement
Agency. Among other things, in order to cover
the continuing losses of the two entities and               Ensuring criminals and terrorists do not use our
their ability to maintain a positive net worth,             financial networks to sustain their operations
Treasury agreed to purchase senior preferred                and/or launch attacks against the U.S. continues
stock as necessary, and as of June 30, 2011,                to be a challenge. Treasury’s Office of
invested $164 billion in the two entities. 5 Even           Terrorism and Financial Intelligence is
with Treasury’s assistance, the future of both              dedicated to disrupting the ability of terrorist
entities remains in question and prolonged                  organizations to fund their operations. This
assistance may be required. Additionally, the               office brings together intelligence gathering and
legislative process for housing finance reform is           analysis, economic sanctions, international
in an early stage and it is difficult to predict            cooperation, and private-sector cooperation to
what lies ahead for winding down the Fannie                 identify donors, financiers, and facilitators
Mae and Freddie Mac conservatorships and                    supporting terrorist organizations, and disrupts
reforming housing finance in the long run.                  their ability to fund them. Treasury carries out
                                                            its responsibilities to enhance financial
TARP, established under EESA, gave Treasury                 transparency through the Bank Secrecy Act
the authorities necessary to bolster credit                 (BSA) and USA Patriot Act. The Financial
availability and address other serious problems             Crimes Enforcement Network (FinCEN) is the
in the domestic and world financial markets.                Treasury bureau responsible for administering
Treasury’s Office of Financial Stability                    BSA.
administers TARP, and through several of its
programs, made purchases of direct loans and                Over the past decade, Treasury’s Office of
equity investments in a number of financial                 Terrorism and Financial Intelligence has made
institutions and other businesses, as well as               progress in closing the vulnerabilities that
guaranteed other troubled mortgage-related and              allowed money launderers and terrorists to use
financial assets. Authority to make new                     the financial system to support their activities.
investments under the TARP program expired                  Nonetheless, significant challenges remain. One
on October 3, 2010. Treasury, however, is                   challenge is ensuring the continued cooperation
continuing to make payments for programs                    and coordination of all the organizations
which have existing contracts and                           involved in its anti-money laundering and
commitments. Treasury’s challenge in this area              combating terrorist financing efforts. Many of
has changed from standing-up and running                    these entities also participate in efforts to ensure
TARP programs to winding them down and                      compliance with U.S. foreign sanction programs
recovering its investment. To date, Treasury has            administered by Treasury’s Office of Foreign
reported positive returns from the sale of its              Assets Control. Neither FinCEN nor the Office
investments in the banking industry and has                 of Foreign Assets Control has the resources or
begun reducing its investment in American                   capability to maintain compliance with their
International Group.                                        programs without significant help from these
                                                            other organizations. To this end, Treasury has
5 As an update, as of December 31, 2011, $187 billion was   entered into memoranda of understanding with
invested in the two entities.
                                                            many federal and state regulators in an attempt

                     Treasury Office of Inspector General Semiannual Report—March 2012                        5
                                          Treasury’s Management and Performance Challenges

to build a consistent and effective process.           increased enforcement designed to ensure
While important to promote the cooperation             MSBs comply with BSA requirements, including
and coordination needed, it should be noted            registration and report filing requirements.
that these instruments are nonbinding and carry        However, ensuring MSBs register with FinCEN
no penalties for violations, and their overall         has been a continuing challenge. Furthermore,
effectiveness has not been independently               IRS serves as the examining agency for MSBs
assessed.                                              but has limited resources to inspect MSBs or
                                                       identify unregistered MSBs.
Last year, financial institutions filed
approximately 15 million BSA reports, including        FinCEN has also been concerned with MSBs
over 1.3 million suspicious activity reports.          that use informal value transfer systems and
While the number of suspicious activity reports        with MSBs that issue, redeem, or sell prepaid
has been increasing since 2001, FinCEN needs           access. MSBs using informal value transfers
to continue its efforts to work with regulators        have been identified in a number of attempts to
and examining agencies to ensure that financial        launder proceeds of criminal activity or finance
institutions establish effective BSA compliance        terrorism. This past summer, FinCEN issued a
programs and file accurate and complete BSA            final rule applying customer identification,
reports, as required. Furthermore, FinCEN still        recordkeeping, and reporting obligations to
needs to complete work to issue anti-money             providers and sellers of prepaid access.
laundering regulations as it determines                Ensuring compliance with these rules will be a
appropriate for some non-bank financial                major challenge.
institutions, such as vehicle dealers;
pawnbrokers; travel agents; finance companies;         To detect possible illicit wire transfer use of the
real estate closing and settlement services; and       financial system, FinCEN also proposed a
financial services intermediaries, such as             regulatory requirement for certain depository
investment advisors.                                   institutions and MSBs to report cross-border
                                                       electronic transmittals of funds. However, such
BSA data is currently maintained by IRS and            a system cannot be fully implemented until
access to the database is generally handled            FinCEN completes its work on its BSA IT
through an IRS system. FinCEN’s BSA IT                 Modernization project, scheduled for 2014.
Modernization Program, begun in 2008, is being
built to ensure efficient management,                  Management of Capital Investments
safeguarding, and use of BSA information. This
program, which we believe is needed, has yet to        Managing large capital investments, particularly
reach a point of broad-based integration testing       IT investments, is a difficult challenge for any
and is highly dependent on continued funding, a        organization, whether public or private. As a
challenge for many programs today.                     new development, after several years of
                                                       attempting to centrally manage large
FinCEN has a particularly difficult challenge in       infrastructure investments at the Department
dealing with money services businesses (MSB).          level, Treasury has announced that it will
FinCEN has taken steps to improve MSB                  de-consolidate all infrastructure investments to
examination coverage and compliance. In the            the bureaus. This move is intended to improve
past year, FinCEN has finalized new rules and

                  Treasury Office of Inspector General Semiannual Report—March 2012                       6
                                          Treasury’s Management and Performance Challenges

efficiency and transparency, cost savings and           develop a new BSA system ended in failure with
avoidance, and overall governance.                      over $17 million wasted. However, early
                                                        indications from our audit work are that project
In prior years, we reported on a number of              management is much improved for this effort.
capital investment projects that either failed or
had serious problems. This year, we continue to         It remains to be seen whether Treasury’s
identify challenges with ongoing IT                     decision to de-consolidate all infrastructure
investments.                                            investments will improve efficiency and
                                                        transparency, cost savings and avoidance, and
Replacement telecommunications platform                 overall governance as intended.

Treasury plans to spend $3.7 billion on its IT          Matter of Concern
Infrastructure Telecommunications Systems and
Services investment. While the Treasury                 Our memorandum also highlighted an area of
Network has become operational across                   increasing concern – information security.
Treasury, it is not yet fully compliant with
Federal security requirements, among other              We reported information security as a serious
things.                                                 management and performance challenge at
                                                        Treasury for a number of years but removed the
Common identity management system                       challenge in 2009. We did so because Treasury
                                                        had made significant strides in improving and
The Treasury Enterprise Identity, Credential            institutionalizing its information security
and Access Management is a $147 million effort          controls. We believe that remains the case
to implement requirements for a common                  today. However, notwithstanding Treasury’s
identity standard. Treasury has reported that the       strong security stance, cyber attacks against
system was $40 million over planned costs.              federal government systems by foreign
                                                        governments and the hacker community are
Data center consolidation                               unrelenting and increasing. Treasury’s
The Office of Management and Budget (OMB)               information systems are critical to the Nation,
initiated the Federal Data Center Consolidation         and thus potential targets of those wishing to do
Initiative to reduce the number of federal data         grave harm. Accordingly, this is a very troubling
centers. Treasury had over 60 data centers              situation that requires the highest level of
around the country and during fiscal year 2011          continual attention to ensure that information
closed 3. Treasury plans to close 12 more by            security policies remain current and practices do
2015. Treasury’s ability to successfully                not deteriorate.
accomplish this is contingent on adapting
shared infrastructure services.

FinCEN BSA IT Modernization

FinCEN’s BSA IT Modernization is expected to
cost about $120 million and be completed in
2014. A prior attempt, from 2004 to 2006, to

                   Treasury Office of Inspector General Semiannual Report—March 2012                    7
                                                               Other Financial Statement Audits
Office of Audit – Significant
Audits and Other Products                                      The Chief Financial Officers Act of 1990, as
                                                               amended by the Government Management
Financial Management                                           Reform Act of 1994, requires annual financial
                                                               statement audits of Treasury and any
Financial Audits                                               component entities designated by OMB. In this
                                                               regard, OMB designated IRS for annual
Consolidated Financial Statements                              financial statement audits. The financial
                                                               statements of certain other Treasury component
KPMG LLP (KPMG), an independent public
                                                               entities are audited pursuant to other
accounting firm, working under contract with
                                                               requirements, their materiality to Treasury’s
our office, issued an unqualified opinion on the
                                                               consolidated financial statements, or as a
Department’s fiscal years 2011 and 2010
                                                               management initiative.
consolidated financial statements. The auditors
reported a material weakness related to financial
                                                               The table on the next page shows the results of
systems and reporting at the IRS and significant
                                                               the financial statement audits of the
deficiencies related to (1) financial reporting
                                                               Department and those component entities
practices at the Departmental level, (2) financial
                                                               where financial statement audits were
accounting and reporting at the Office of
                                                               performed for fiscal years 2011 and 2010.
Financial Stability, and (3) information systems
controls at the Financial Management Service
(FMS). KPMG reported that the Department’s
financial management systems did not
substantially comply with the requirements of
the Federal Financial Management
Improvement Act of 1996 related to federal
financial management system requirements and
applicable federal accounting standards. In
addition, the audit identified a reportable
instance of noncompliance with laws and
regulations related to section 6325 of the
Internal Revenue Code. 6 (OIG-12-015)




6 The Internal Revenue Code grants IRS the power to file
a lien against the property of any taxpayer who neglects
or refuses to pay all assessed federal taxes. Section 6325
requires IRS to release a federal tax lien within 30 days
after the date the tax liability is satisfied, or has become
legally unenforceable, or the Secretary of the Treasury has
accepted a bond for the assessed tax.


                      Treasury Office of Inspector General Semiannual Report—March 2012                      8
                                                               Office of Audit – Significant Audits and Other Products




Treasury-audited financial statements and related audits
                                    Fiscal year 2011 audit results                      Fiscal year 2010 audit results

                                                      Material                                     Material
                                                      weak-          Significant                   weak-          Significant
Entity                              Opinion           nesses         deficiencies       Opinion    nesses         deficiencies
Government Management Reform Act/Chief Financial Officers Act requirements
Department of the Treasury              UQ                 1                        3         UQ              1                  3
Internal Revenue Service (A)            UQ                 2                        1         UQ              2                  1
Other required audits
Department of the Treasury’s
Special-Purpose Financial
Statements                                     UQ                0                  0         UQ              0                  0
Office of Financial Stability
(TARP) (A)                                     UQ                0                  1         UQ              0                  1
Bureau of Engraving and Printing               UQ                0                  1         UQ              0                  0
Community Development
Financial Institutions Fund                    UQ                2                  0         UQ              0                  1
Office of DC Pensions                          UQ                0                  1         UQ              0                  1
Exchange Stabilization Fund                    UQ                0                  0         UQ              0                  1
Federal Financing Bank                         UQ                0                  0         UQ              0                  0
Office of the Comptroller of the
Currency                                       UQ                0                  0         UQ              0                  0
Office of Thrift Supervision                   UQ                0                  0         UQ              0                  0
Treasury Forfeiture Fund                       UQ                0                  0         UQ              0                  0
Mint
   Financial statements                        UQ                0                  1         UQ              0                  0
   Custodial gold and silver
   reserves                                    UQ                0                  0         UQ              0                  0
Other audited accounts that are material to Treasury financial statements
Bureau of the Public Debt
Schedule of Federal Debt (A)                  UQ                 0                  0         UQ              0                  0
Government trust funds                        UQ                 0                  0         UQ              0                  0
Financial Management Service
   Treasury-managed accounts                  UQ                 0                  1         UQ              0                  1
   Operating cash of the federal
   government                                 UQ                 0                  1         UQ              0                  1
Management-initiated audit
Financial Crimes Enforcement
Network                                       UQ                 0                  0         UQ              0                  0
Alcohol and Tobacco Tax and
Trade Bureau                                  UQ                 1                  0         UQ              1                  0
UQ           Unqualified opinion
(A)          Audited by the Government Accountability Office


The following instances of noncompliance with                                IRS, were reported in connection with the audit
the Federal Financial Management                                             of the Department’s fiscal year 2011
Improvement Act of 1996, which all relate to                                 consolidated financial statements.




                            Treasury Office of Inspector General Semiannual Report—March 2012                                9
                                                        Office of Audit – Significant Audits and Other Products

                                                                                                                         Type of
Condition                                                                                                                noncompliance
Persistent deficiencies in internal control over unpaid tax assessment systems and information security remain           Federal financial
uncorrected. As a result of these deficiencies, IRS was (1) unable to rely upon its systems or compensating and          management systems
mitigating controls to provide reasonable assurance that its financial statements are fairly presented, (2) unable to    requirements
ensure the reliability of other financial management information produced by its systems, and (3) at increased risk of
compromising confidential IRS and taxpayer information. (first reported in fiscal year 1997)
Automated systems for tax related transactions did not support the net federal taxes receivable amount on the balance    Federal accounting
sheet and other required supplementary information related to uncollected taxes – compliance assessments and write-      standards
offs – as required by Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting. (first reported in fiscal year
1997)


The status of these instances of noncompliance,                                      • The Office of D.C. Pensions’
including progress in implementing remediation                                            (1) supervisory review and monitoring
plans, will be evaluated as part of the audit of                                          controls over adding or modifying
the Department’s fiscal year 2012 consolidated                                            annuitant benefit payments in the
financial statements.
                                                                                          System to Administer Retirement, and
                                                                                          (2) System to Administer Retirement
The fiscal year 2011 audits of Treasury’s
                                                                                          configuration and change management
component entities financial statements
                                                                                          controls. (OIG-12-029)
identified the following material weaknesses and
other significant deficiencies. These audits were                                    • The Mint’s controls over inventory.
performed by KPMG or other independent                                                    (OIG-12-019)
public accountants working under contract with                                       • FMS’s IT controls over systems
our office.                                                                               managed by FMS and third parties.
                                                                                          (OIG-12-012, OIG-12-014)
Material Weaknesses
                                                                               In connection with the fiscal year 2011 financial
     • The CDFI Fund’s controls over                                           statement audits, the auditors issued
          (1) grant accruals and (2) grant                                     management letters on other matters involving
          disbursements. (OIG-12-011)                                          internal control to BEP (OIG-12-032), the
     • The Alcohol and Tobacco Tax and                                         Federal Financing Bank (OIG-12-010), the Mint
          Trade Bureau’s controls over the review                              (OIG-12-020), OCC (OIG-12-028), the Office
          of the allowance for doubtful accounts                               of D.C. Pensions (OIG-12-031) and the
          on tax and trade receivables.                                        Treasury Forfeiture Fund (OIG-12-022). In
          (OIG-12-034)                                                         addition, the auditors issued two sensitive but
                                                                               unclassified management reports that detailed
                                                                               FMS’s significant deficiency related to IT
Other Significant Deficiencies
                                                                               controls over systems managed by it and third
                                                                               parties and recommended corrective actions.
     • The Bureau of Engraving and Printing’s
                                                                               (OIG-12-025, OIG-12-026)
          (BEP) controls over year end liability
          accruals. (OIG-12-030)



                        Treasury Office of Inspector General Semiannual Report—March 2012                                                     10
                                          Office of Audit – Significant Audits and Other Products

Attestation Engagement                                 perform an audit of FISMA compliance for the
                                                       Department’s unclassified systems, with the
KPMG, working under contract with our office,          exception of the IRS. For IRS, TIGTA
issued an unqualified opinion that the Bureau of       performed the annual FISMA evaluation and
the Public Debt (BPD) Trust Fund                       the Government Accountability Office (GAO)
Management Branch’s assertions pertaining to           performed the financial statement audit of IRS
the schedule of assets and liabilities and related     and covered IRS information security for
schedule of activity of selected trust funds, as of    financial systems. Based on the results reported
and for the year ended September 30, 2011,             by KPMG, TIGTA, and GAO, we determined
were fairly stated. These schedules relate to the      that Treasury’s information security program
functions of the Trust Fund Management                 was in place and was generally consistent with
Branch as custodian of the Federal                     FISMA, OMB information security
Supplementary Medical Insurance Trust Fund,            requirements, and the National Institutes of
Federal Hospital Insurance Trust Fund,                 Standards (NIST) information security
Highway Trust Fund, Airport and Airway Trust           standards.
Fund, Hazardous Substance Superfund Trust
Fund, Leaking Underground Storage Tank                 However, the KPMG audit of Treasury’s
Trust Fund, Oil Spill Liability Trust Fund,            unclassified systems (except for those of IRS)
Harbor Maintenance Trust Fund, Inland                  identified findings in a number of areas
Waterways Trust Fund, and the South Dakota             requiring improvement to make the program
Terrestrial Wildlife Habitat Restoration Trust         fully effective. Specifically, KPMG reported the
Fund. The attestation examination did not              following at one or more Treasury component
identify any material weaknesses or significant        entities
deficiencies in internal control or instances of
reportable noncompliance with laws and                 •   logical account management activities were
regulations. (OIG-12-003)                                  not fully documented or consistently
                                                           performed (4 component entities)
                                                       •   security incidents were not reported timely
                                                           (4 component entities)
Programs and Operations                                •   system security plans did not fully adopt
                                                           NIST-recommended security controls from
Information Technology                                     NIST Special Publication 800-53,
Fiscal Year 2011 Audit of Treasury’s Federal               Revision 3, Recommended Security Controls for
Information Security Management Act                        Federal Information Systems and Organizations (3
                                                           component entities)
Unclassified Systems
                                                       •   sufficient audit log reviews were not
The Federal Information Management Security                performed in accordance with NIST and
Act (FISMA) requires each Inspector General                Treasury standards (1 component entity)
to perform an annual, independent evaluation           •   media scheduled for sanitization was not
of their agency’s information security program             properly inventoried in accordance with
and practices. We contracted with KPMG to                  bureau procedures (1 component entity)


                 Treasury Office of Inspector General Semiannual Report—March 2012                       11
                                         Office of Audit – Significant Audits and Other Products

•   plans of action and milestones were not            Fiscal Year 2011 Audit of Treasury’s Federal
    tracked and remediated in accordance with          Information Security Management Act
    NIST and Treasury requirements (2                  Implementation for Its Collateral National
    component entities)                                Security Systems
•   vulnerability scanning and remediation were
    not performed in accordance with Treasury          We performed the fiscal year 2011 audit of
                                                       FISMA implementation for the Department’s
    requirements (3 component entities)
                                                       collateral national security systems, excluding
•   contingency planning and testing and
                                                       IRS systems. Based on our fiscal year 2011
    backup controls were not fully implemented         audit, we found that Treasury’s information
    or operating as designed (4 component              security program and practices for its collateral
    entities)                                          national security systems still needs
•   outdated and unsupported software was              improvement. Specifically, we identified four
    utilized (1 component entity)                      findings, including one repeat finding for our
•   risk management program was not                    last year audit, and made nine
    consistent with NIST Special Publication           recommendations. Due to the sensitive nature
    800-37, Revision 1, Guide for Applying the         of these systems, we designed this report
    Risk Management Framework to Federal               Sensitive But Unclassified. (OIG-12-006)
    Information Systems (1 component entity)
•   personnel termination procedures were not          Failed Bank Reviews
    followed (1 component entity)
                                                       OCC regulates and supervises the nation’s
•   system configuration management programs           largest banks and thrifts.
    were not implemented correctly (3
    component entities)                                In 1991, Congress enacted the Federal Deposit
                                                       Insurance Corporation Improvement Act
TIGTA also reported that IRS was generally             following the failures of about a thousand banks
consistent with FISMA requirements. However,           and thrifts from 1986 to 1990. Among other
TIGTA noted that the IRS information security          things, the act added Section 38, Prompt
program was not fully effective as a result of the     Corrective Action (PCA), to the Federal
conditions identified in configuration                 Deposit Insurance Act. PCA requires federal
management, security training, plans of action         banking agencies to take specific supervisory
and milestones, and identity and access                actions in response to certain circumstances. 7
management. In addition, GAO reported a
continuing material weakness in IRS’s internal         7 PCA is a framework of supervisory actions for insured
control over information security that resulted        institutions that are not adequately capitalized. It was
in IRS’s inability to rely on the controls             intended to ensure that action is taken when an institution
embedded in its automated financial                    becomes financially troubled in order to prevent a failure
                                                       or minimize resulting losses. These actions become
management systems. (OIG-12-008)                       increasingly more severe as the institution falls into lower
                                                       capital categories. The capital categories are well-
                                                       capitalized, adequately capitalized, undercapitalized,
                                                       significantly undercapitalized, and critically
                                                       undercapitalized.


                 Treasury Office of Inspector General Semiannual Report—March 2012                              12
                                                  Office of Audit – Significant Audits and Other Products

                                                               this semiannual reporting period. During this
Section 38 also requires the inspector general                 period, we completed 12 MLRs and 1 in-depth
for the primary federal regulator 8 of a failed                review. Since 2007, we have completed 53
financial institution conduct a material loss                  MLRs and 2 in-depth reviews.
review (MLR) when the estimated loss to the
DIF is “material.” An MLR requires that we                     As previously reported, from the MLRs we have
determine the causes of the failure and assess                 completed, we have seen a number of trends
the supervision of the institution, including the              emerge. With respect to the causes of these
implementation of the Section 38 PCA                           institutions’ failures, we found significant losses
provisions. A material loss is defined as a loss to            in loan portfolios, poor underwriting and overly
the DIF that exceeds $200 million for 2010 and                 aggressive growth strategies fueled by volatile
2011, $150 million for 2012 and 2013, and                      and costly wholesale funding (e.g., brokered
$50 million in 2014 and thereafter, with a                     deposits, Federal Home Loan Bank loans); risky
provision for increasing the threshold to                      lending products such as option adjustable rate
$75 million under certain circumstances.                       mortgages; high asset concentrations; and
Section 38 also requires a review of all bank                  inadequate risk management systems. In
failures with losses under those threshold                     addition, the management and boards of these
amounts for the purposes of (1) ascertaining the               institutions were often ineffective. The
grounds identified by OCC for appointing                       economic recession and the decline in the real
FDIC as receiver, and (2) determining whether                  estate market were also factors in most of the
any unusual circumstances exist that might                     failures.
warrant a more in-depth review of the loss. This
provision applies to bank failures from                        With respect to OCC’s and the former OTS’s
October 1, 2009, forward. 9                                    supervision, we found that both regulators
                                                               conducted regular and timely examinations and
From the beginning of the current economic                     identified operational problems, but were slow
crisis in 2007 through March 2012, FDIC and                    to take timely and effective enforcement action.
other banking regulators closed over 400 banks                 We also found that in assessing these
and thrifts. Treasury was responsible for                      institutions, examiners regularly gave too much
regulating 118 of those institutions. Of the 118               weight to profitability and performing loans and
failures, 54 resulted in a material loss to the                not enough to the amount of risk these
DIF. There were no new failures of Treasury                    institutions had taken on. We also noted that
regulated banks that required an MLR during                    regulators took appropriate PCA when
                                                               warranted but those actions did not prevent a
                                                               material loss to the DIF.
8 Within Treasury, OCC is the regulator for national
banks. Effective July 21, 2011, OCC assumed the
regulatory responsibility for federal savings associations
that were previously regulated by OTS.                         Material Loss and In-depth Reviews
9 Prior to 2010, Section 38 required an MLR if loss to the
DIF from a bank failure exceeded the greater of                Between October 1, 2011, and March 31, 2012,
$25 million or 2 percent of the institution’s total assets.    we completed 12 MLRs of Treasury-regulated
There was also no requirement for us to review bank            institutions whose failures resulted in material
failures with losses less than this threshold.
                                                               losses to the DIF. The most significant of these

                     Treasury Office of Inspector General Semiannual Report—March 2012                         13
                                          Office of Audit – Significant Audits and Other Products

failures in terms of FDIC-estimated losses were        into receivership at the same time as the other
the national banks owned by First Bank of Oak          FBOP banks.
Park Corporation (FBOP), with $2 billion in
estimated losses covering 4 national bank              Regarding supervision of the FBOP banks, we
failures, and Corus Bank, with $797.9 million in       concluded that OCC had a reasonable basis at
estimated losses. These failed national banks          the time of its examinations for believing the
supervised by the OCC are summarized below.            banks could manage the risks of increased
A list of the 12 MLRs completed during this            concentrations in commercial real estate. We
semiannual period is provided in the Statistical       noted, however, that OCC permitted the FBOP
Summary section.                                       banks to risk-weight the banks’ GSE equity
                                                       securities at 20 percent for regulatory capital
Material Loss Reviews of Failed National Banks         purposes. The capital regulations of the other
Owned by First Bank of Oak Park Corporation            federal banking agencies require risk-weighting
(Closed October 30, 2009; Estimated Loss to            these types of securities at 100 percent.
the DIF - $2 billion)
                                                       OCC granted temporary relief to the FBOP
The four FBOP banks (California, Park, San             banks on the capital treatment of deferred tax
Diego, and Pacific) that were the subject of our       assets that arose from the banks’ GSE
MLR failed primarily due to significant losses         investment write-downs. We determined that
associated with their concentrations in                OCC exercised reasonable supervisory
(1) investment securities, including government        judgment in providing this relief. As the FBOP
sponsored enterprise (GSE) securities and              banks’ reported falling capital levels immediately
corporate bonds; and (2) high-risk commercial          following the expiration of the deferred tax
real estate loans. In addition, the FBOP banks         asset relief, we concluded that OCC used its
did not maintain adequate capital levels to            authority under Section 38, PCA in a timely
mitigate their increasing levels of risk, and were     manner.
unsuccessful in efforts to obtain funds from
either TARP or private sources to make up for          We have referred certain capital-related
the losses sustained by the banks.                     transactions by Park and another FBOP
                                                       national bank Citizens to our Office of
With respect to the failure of Park, FDIC issued       Investigations.
the bank a Notice of Assessment of Liability
that required an immediately payable                   We recommended that OCC re-evaluate
cross-guaranty liability in the amount of              whether its requirements for risk-weighting of
$1.7 billion. Though adequately capitalized prior      GSE equity securities should be changed from
to the Notice of Assessment of Liability, Park         20 percent to 100 percent. In its management
was no longer viable after the assessment since        response, OCC agreed that a re-evaluation of its
it exceeded the bank’s total capital. The              guidance for risk-weighting GSE equity
resulting depletion of Park’s capital levels           securities is appropriate, and anticipates
caused the bank to become critically                   addressing this in the upcoming notice of
undercapitalized with no reasonable prospect of
recapitalization. As a result, OCC placed Park


                 Treasury Office of Inspector General Semiannual Report—March 2012                       14
                                               Office of Audit – Significant Audits and Other Products

proposed rulemaking for Basel III 10 to ensure              underwriting—all of which are examples of
consistency among all of the federal banking                enhanced risk management practices that
agencies. (OIG-12-043)                                      comply with interagency guidance.

Material Loss Review of Corus Bank, N.A.                    We determined that OCC took the appropriate
(Closed February 11, 2009; Estimated Loss to                PCA in a timely manner as the bank’s capital
the DIF - $797.9 million)                                   levels fell. Those actions, however, did not
                                                            prevent Corus’s failure.
Corus Bank, N.A.’s failure was caused by its
business strategy that included high                        We also identified several matters related to
concentrations in commercial real estate lending            Corus’s interaction with its holding company,
and a substantial presence in volatile geographic           Corus Bankshares. Specifically, (1) Corus
markets. In addition, Corus’s loan management               Bankshares did not serve as a source of strength
procedures were not commensurate with its                   for Corus during 2009; (2) Corus’s loan
high-risk lending practices.                                participations with its holding company, while
                                                            allowed, did not diversify lending risk; and
With regard to supervision, OCC examiners                   (3) Corus may have inappropriately amended
generally followed existing guidance with                   two loan participations with its holding
respect to Corus. However, we believe that                  company. We referred certain matters related to
guidance was not adequate for effectively                   Corus’s transactions with its holding company
dealing with high concentrations. OCC noted                 to our Office of Investigations.
that Corus’s (1) commercial real estate
concentration posed significant risk to the bank;           We reaffirmed a recommendation from
(2) risks to capital were high; (3) loan losses and         previous MLRs that OCC work with its
credit risk were increasing; and (4) lending                regulatory partners to determine whether a limit
strategy, rapid portfolio growth, and deposit               on risky concentrations should be established.
structure demanded strong liquidity. However,               We also recommended that OCC work with its
at the same time, examiners considered Corus’s              regulatory partners to determine whether
risks reasonable given the bank’s risk mitigation           regulatory guidance should be changed, or
systems, including (1) experienced management,              legislation should be proposed to amend
(2) a large capital base, and (3) high-quality              12 USC, Section 84, Lending Limits, to prohibit
                                                            or limit the sale of loan participations by a bank
10 The Basel Committee on Banking Supervision provides      to its holding company for the purpose of
a forum for regular cooperation on banking supervisory      complying with the legal lending limit. In a
matters. Its objective is to enhance understanding of key
supervisory issues and improve the quality of banking       written response, OCC agreed to contact its
supervision worldwide. In this regard, the Committee is     regulatory partners to determine if there is an
best known for its international standards on capital       appetite to make a change. OCC also
adequacy; the Core Principles for Effective Banking
Supervision; and the Concordat on cross-border banking
                                                            commented that it is common practice for
supervision. The Committee's members come from 27           banks to sell loan participations to their holding
countries, including the US. Basel III is a global          companies and affiliates. We considered OCC’s
regulatory standard on bank capital adequacy, stress
testing and market liquidity risk agreed upon by the
                                                            planned actions to be responsive to our
Committee in 2010-2011.                                     recommendation. (OIG-12-037)


                    Treasury Office of Inspector General Semiannual Report—March 2012                       15
                                             Office of Audit – Significant Audits and Other Products

Nonmaterial Loss Reviews                                  since our September 2011 report. We concluded
                                                          that FRB, FDIC, OCC, and OTS implemented
During this semiannual reporting period, five             the actions in the Plan that were necessary to
OCC-regulated financial institutions failed with          transfer OTS functions, employees, and funds
losses below the threshold triggering an MLR.             to FRB, FDIC, and OCC. We also concluded
We determined that there were no unusual                  that all OTS property was transferred to FRB,
circumstances surrounding the failures or the             FDIC, and OCC; and procedures and
supervision exercised by OCC that would                   safeguards are in place as outlined in the Plan to
warrant a more in-depth review of the failures            ensure transferred employees are not unfairly
by our office. Additional information on the              disadvantaged.
five failures is provided in the “Bank Failures
and Nonmaterial Loss Reviews” section of this             As required by Dodd-Frank, we will continue to
report.                                                   report jointly with the OIGs of FRB and FDIC
                                                          on the status of the Plan every 6 months until
During the period, we issued four final audit             all aspects of the Plan have been implemented.
reports on our nonmaterial loss reviews. A list           (OIG-12-046)
of these final audit reports is provided in the
Statistical Summary section.                              Other Performance Audits
                                                          FinCEN’s BSA IT Modernization Program Is on
Other Banking-Related Work                                Schedule and Within Cost, But Requires
                                                          Continued Attention to Ensure Successful
Status of the Transfer of Office of Thrift                Completion
Supervision Functions
                                                          In November 2006, FinCEN began a system
As required by Dodd-Frank, we and the OIGs                development effort, the BSA IT Modernization
of FRB and FDIC completed two reviews on                  Program, to improve the collection, analysis,
the transfer of the former OTS functions to               and sharing of BSA data. It is intended that
FRB, FDIC, and OCC during 2011. The first                 BSA data will transition from IRS to FinCEN as
review, completed in March 2011, reported that            part of this effort. The program is a
the Joint Implementation Plan (Plan) by FRB,              $120 million effort and is to be completed in
FDIC, OCC, and OTS for the transfer was                   2014. It follows a previously failed system
generally adequate. The second review,                    development effort known as BSA Direct
completed in September 2011, reported that                Retrieval and Sharing, terminated in July 2006
FRB, FDIC, OCC, and OTS had substantially                 when FinCEN concluded it had no guarantee of
implemented the actions in the Plan that were             success.
necessary to transfer OTS functions, employees,
funds, and property to FRB, FDIC, and OCC,                We concluded that FinCEN prepared a credible
as appropriate.                                           business case for developing the BSA IT
                                                          Modernization Program. FinCEN considered
The objective of our review this semiannual               four alternatives, developed cost estimates and
reporting period was to determine and report              estimated benefits for each, and actively
on the status of the implementation of the Plan           engaged stakeholders for input. FinCEN also

                  Treasury Office of Inspector General Semiannual Report—March 2012                      16
                                        Office of Audit – Significant Audits and Other Products

restructured to strengthen management and              unable to provide those results. We plan to
oversight of the project. Furthermore, the             review the testing results as part of our ongoing
Treasury Office of the Chief Information               oversight of the program.
Officer has been actively overseeing the
program.                                               IRS is a major user of BSA data. Certain IRS
                                                       users have concerns about the system of record
As of May 2011, FinCEN reported to OMB                 change because of its impact on IRS’s
that the program is on schedule and within an          Web-based Currency Banking and Retrieval
acceptable 10 percent cost threshold. We found         System (WebCBRS), 11 and other IRS systems
that the program is generally within scheduled         that depend on BSA data. WebCBRS is not able
milestones, though the development of certain          to use BSA data in the new system format.
projects has been delayed by more than                 FinCEN agreed to provide BSA data from its
10 percent of scheduled milestones. We also            E-filing system in the same format IRS
found that FinCEN incurred planning costs of           currently uses and map back the data from the
$11.2 million that were not recorded in the IT         new BSA forms in the E-filing system to the old
Dashboard, an OMB website enabling federal             (current) form format in WebCBRS. This
agencies, industry, the general public and other       modification was not in FinCEN’s original
stakeholders to view details of federal IT             development plan as it was initially assumed all
investments. According to FinCEN officials,            IRS users would transition to the new system.
the Treasury Office of the Chief Information           In this regard, there had been some
Officer and OMB were aware of the planning             contemplation that WebCBRS would be retired,
costs and agreed that the costs did not have to        but that proved not possible.
be recorded in the IT Dashboard.
                                                       We recommended that FinCEN (1) in
Successful and timely completion of the                conjunction with IRS, ensure in the short term
program is, in part, dependent on completion of        that IRS’s WebCBRS data needs are met and, in
the system of record. The system of record is          the long term, assist IRS to ensure data
the authoritative data store for all BSA data in       requirements are incorporated into IRS’s
the program. FinCEN is developing a new                modernization efforts; and (2) ensure that, for
system of record and in early 2011 experienced         future major capital investments, required
delays. In March 2011, FinCEN extended some            submissions to OMB include full life-cycle cost
development of the system and testing                  estimates in accordance with OMB’s Circular
milestones because of reported complexities,           A-11 12 and that thorough documentation
such as the additional time the contractor             supporting estimates is maintained.
needed to ensure all business rules were
configured correctly. As of November 2011,
FinCEN had conducted initial systems                   11 WebCBRS is IRS’s data warehouse and information

integration testing of the system and                  retrieval system.
government acceptance testing was continuing.          12OMB Circular A-11, “Preparation, Submission, and
In December 2011, we requested the results             Execution of the Budget,” establishes policy for planning,
                                                       budgeting, acquisition, and management of federal capital
from FinCEN for any completed testing but              assets, and instructs on budget justification and reporting
because testing was still underway, FinCEN was         requirements for major IT investments.


                 Treasury Office of Inspector General Semiannual Report—March 2012                             17
                                                 Office of Audit – Significant Audits and Other Products

In its management response, FinCEN                            deployment of the BSA IT Modernization
concurred with the recommendations. FinCEN                    Program.
stated that it has mitigated challenges
experienced during development of the system                  Improved Planning and Production Oversight
of record. In the short term, FinCEN will                     Over NexGen $100 Note Is Critical
provide BSA data to WebCBRS via the current
E-Filing system and formats. In support of the                As part of an audit of BEP production of the
longer-term goal, FinCEN has been asked to                    NexGen $100 note, we issued a second report
participate on the IRS’s Integrated Project                   that discussed our findings with regard to
Team to define the IRS BSA data end-state                     project management. 14 This audit was jointly
solution. FinCEN’s involvement on the team                    performed by OIG’s Office of Audit and Office
includes providing the technical specifications               of Investigations to address significant
for bulk data distribution, answering questions               problems encountered by BEP in the
related to new BSA data structures, and                       production of the NexGen $100 note and in
providing support as requested.                               response to a request from the Department.
                                                              Production problems with the NexGen $100
Regarding future major capital investments,                   note led to BEP suspending manufacturing of
FinCEN stated in its response that it currently               the notes and a decision by FRB to delay the
has none planned. However, when such a time                   initial issuance, which had been planned for
comes, FinCEN will ensure that required                       February 2011. In conjunction with FRB, BEP
submissions to OMB comply with OMB’s                          has been conducting tests to resolve problems
Circular A-11 and required documentation                      before resuming full production. We also
supporting cost estimates are maintained.                     coordinated our audit work with FRB OIG,
(OIG-12-047)                                                  who was conducting a separate review of FRB.

In light of the IRS’s data mapping concerns,                  In the second report, we considered the delayed
and consistent with a directive in the                        introduction of the NexGen $100 note to be a
Conference Report on the Treasury fiscal year                 production failure that potentially could have
2012 appropriations act (Pub. L. No. 112-74,                  been avoided and resulted in increased costs.
House Report 112-331), 13 we plan in 2012 to                  We found that BEP did not (1) perform
review FinCEN’s system modification for                       necessary and required testing to resolve the
WebCBRS. Additionally, as the program                         technical problems before starting full
progresses through completion in 2014, we plan                production of the NexGen $100 note,
to continue to monitor and report every                       (2) implement comprehensive project
6 months on FinCEN’s development and                          management for the NexGen $100 note
                                                              program, and (3) adequately complete a
                                                              comprehensive cost-benefit analysis for the
13 The Conference Report directed our office to focus

resources, when practical, on audits of the BSA IT
Modernization Program and to submit a report to the           14 Our first report Bill Manufacturing: Improved Security Over
Senate and House Committees on Appropriations                 the NexGen $100 Notes Is Necessary, OIG-11-068 (May 13,
regarding this project, including contractor oversight and    2011), included three findings related to security over the
progress regarding budget and schedule, on March 31,          NexGen $100 note and was discussed in our last
2012, and semiannually thereafter.                            Semiannual Report to the Congress.


                    Treasury Office of Inspector General Semiannual Report—March 2012                                     18
                                        Office of Audit – Significant Audits and Other Products

disposition of the approximately 1.4 billion           for the credit. Additionally, while the IRS’s
finished NexGen $100 notes already printed but         estimate of the tax credit improper payment rate
not accepted by FRB.                                   provided a reasonable estimate of overclaims,
                                                       the calculation did not include an estimate of
We recommended that before resuming full               underpayments. We also reported on other
production, BEP should complete production             opportunities for Treasury to improve its
validation tests to ensure technical problems are      payment recapture audits reporting.
resolved. BEP should also implement a                  (OIG-12-044)
comprehensive and integrated project
management function for the NexGen                     The Mint’s Coin Exchange Program Lacked
$100 note program, as well as for future note          Proper Controls
designs. In addition, we recommended that
BEP, in coordination with FRB, complete a              Referred to as the coin exchange program, the
comprehensive cost-benefit analysis before             Mint installed coin machines in its Washington,
making decisions related to the disposition of         D.C., headquarters building where the public
the NexGen $100 notes that have not been               and Mint employees can exchange bills and
accepted by FRB.                                       coins at face value for new circulating coins.
                                                       After the Mint found financial discrepancies in
In a written response, BEP management                  the coin exchange program related to the John
provided their corrective actions taken and            Quincy Adams Presidential $1 coin, it
planned to implement the recommendations.              conducted an internal review that identified a
We believe these actions were responsive to the        number of serious deficiencies in the program’s
intent of our recommendations. (OIG-12-038)            controls and processes. Because of these serious
                                                       internal control deficiencies, the Mint was not
The Department of the Treasury Was Not in              able to determine whether an over $9,000
Compliance With the Improper Payments                  discrepancy in the John Quincy Adams
Elimination and Recovery Act for Fiscal Year           Presidential $1 coin program was caused by loss
2011                                                   or theft. To provide more accountability over
                                                       the coin exchange program, the internal review
As required by the Improper Payments                   recommended, among other things, enhancing
Elimination and Recovery Act of 2010                   controls and security of the headquarters vault
(IPERA), we performed an audit to determine            and coin machines and making timely deposits
whether the Department was in compliance               and reconciliations. The fact that the Mint
with IPERA for fiscal year 2011. We concluded          operated the coin exchange program for several
that the Department was not in compliance              years with an absence of proper controls and no
with IPERA for fiscal year 2011, due to the            accountability was a very serious concern and
IRS’s Earned Income Tax Credit improper                we therefore undertook an audit to determine
payments reporting deficiencies identified by          whether the Mint took appropriate actions in
TIGTA. Specifically, IRS had not established           response to its internal review.
annual improper payment reduction targets for
the tax credit. IRS also did not report an             We found that the Mint had either not
improper payment rate of less than 10 percent          implemented certain recommendations


                 Treasury Office of Inspector General Semiannual Report—March 2012                  19
                                        Office of Audit – Significant Audits and Other Products

identified in the internal review or needed to
otherwise enhance its standard operating
procedures to (1) improve vault security,
(2) ensure that unused coins are deposited in a
timely manner, and (3) ensure coin exchange
program reconciliations are performed on a
regular and timely basis. We made three
recommendations to address these matters and
observed that given the prior history and losses
associated with the coin exchange program,
heightened management attention was warranted
to fully address the recommendations in our
report and the internal Mint report. The Mint
concurred with our findings and its corrective
actions were responsive to our recommendations.
(OIG-12-018)




                 Treasury Office of Inspector General Semiannual Report—March 2012          20
                                                           sufficient to meet its obligations under the
Office of SBLF Program                                     SBLF program for future cost re-estimates.
Oversight – Significant
                                                           Treasury agreed to work with the OIG to
Audits and Other Products                                  enhance the accuracy of its cost model, but
                                                           believed the recommended actions would not
Review of Cost Estimate for the Small Business
                                                           provide incremental predictive value in
Lending Fund Program
                                                           projecting expected defaults. Since the report
In October 2011, Treasury re-estimated the cost            was issued, Treasury has met with the OIG and
of the SBLF program for its financial                      resolved its differences over recommended
statements. Instead of costing taxpayers                   improvements to the SBLF cost model.
$1.26 billion as originally estimated, Treasury            (OIG-SBLF-12-001)
projected that the SBLF program will generate a
savings of $0.08 billion. The savings is primarily         Soundness of Early SBLF Investment Decisions
due to lower-than-expected participation
                                                           Our review of 23 approved institutions
volume. Other factors contributing to the
                                                           disclosed that 52 percent had significant
difference in estimates included lower-than-
                                                           supervisory issues that could restrict their ability
projected participant default rates and market
                                                           to meet their financial obligations to the SBLF
interest rates, and actual interest rates at the
                                                           program. Although the banks reviewed had
time of investments.
                                                           CAMELS 16 composite ratings of “2”, federal
                                                           bank examiners and, in some cases, supervisory
We determined that the metrics used by
                                                           consultations noted multiple supervisory
Treasury may not have been sufficient to
                                                           concerns about bank earnings, asset quality, and
project participant default rates affecting
                                                           management. However, federal banking
repayment ability, particularly for de novo 15
                                                           agencies did not always report concerns
banks. Further, while Treasury evaluated the
                                                           identified in bank examinations, leaving
ability of institutions to generate cash in the
                                                           Treasury without sufficiently robust information
future based on their capital levels, asset quality,
                                                           about the financial condition of institutions
earnings, operating expenses, and liquidity, it
                                                           seeking funding. This occurred because
did not consider supervisory concerns about
                                                           Treasury did not specify the types of
bank controls and risk management practices.
                                                           supervisory information requiring disclosure in
Treasury also did not consider historical
                                                           federal banking agency consultations as we had
retained earnings as an indicator of earnings
                                                           previously recommended.
performance.

We recommended that Treasury consider
                                                           16 CAMELS is an acronym for performance rating
supervisory concerns about bank management
                                                           components for financial institutions: Capital adequacy,
and historical retained earnings in evaluating             Asset quality, Management administration, Earnings,
whether a participant’s future cash flow will be           Liquidity, and Sensitivity to market risk. Numerical values
                                                           range from 1 to 5, with 1 being the best rating and 5
                                                           being the worst. Each institution is also assigned a
15 A newly chartered bank that has been in operation for   composite rating based on an assessment of its overall
less than 7 years.                                         condition and level of supervisory concern.


                    Treasury Office of Inspector General Semiannual Report—March 2012                              21
                 Office of SBLF Program Oversight – Significant Audits and Other Products

In other cases where Treasury was fully aware          we considered to be responsive to the
of supervisory concerns prior to investment            recommendation. (OIG-SBLF-12-002)
decisions, it approved institutions without a
clear and documented rationale supporting its          Other Related Activity
decisions. We noted instances where approved
institutions had repayment probabilities below         During the semiannual period, we worked
program thresholds, were restricted from paying        closely with the Department to develop and
dividends, or would have to use SBLF funds or          adopt a definition of “intentional and reckless”
borrow money to finance SBLF dividends or              misuse of funds awarded under the SSBCI.
bank operations. Further, Treasury deviated            Developing the definition was critical as the
from its credit analysis process, overriding           legislation authorizing the SSBCI program
repayment analysis results. In every case, the         requires recoupment of such funds, but does
deviation appeared to be done to increase a            not define what constitutes intentional and
bank’s chances of approval. Finally, Treasury          reckless misuse. The definition was distributed
used a flawed and untested credit analysis             to SSBCI participants along with the remedies
methodology to predict applicant repayment             that would be proposed if an OIG audit were to
ability.                                               identify such misuse.

The weaknesses identified raise questions about
whether Treasury negotiated an effective
supervisory consultative process, considered
sufficient supervisory information, and
consistently implemented its investment
decision process. Also, without evidence of how
supervisory concerns raised in the consultative
process were addressed in Treasury’s final
decision, it is unclear whether some of the
institutions approved in June 2011 will be able
to consistently meet their dividend obligations
and repay principal as the Small Business Jobs
Act of 2010 intended.

Because the investment period for the SBLF
program has passed, we did not recommend
improvements to the investment decision
process. However, we recommended that
Treasury create an internal watch list and engage
in enhanced monitoring of the 12 banks
identified with supervisory issues. Management
agreed to take the recommended action as part
of its broader asset management process, which



                 Treasury Office of Inspector General Semiannual Report—March 2012                  22
                                                       sold or rented out on the black market to
Office of Investigations –                             individuals engaged in criminal activity, or the
Significant Investigations                             vehicles’ titles were “washed” 17 out of state and
                                                       the vehicles were sold to dealers or at auctions.
Computer Programmer Arrested for Stealing              The OIG employee was alleged to have taken
Proprietary Code                                       out bank loans using fraudulent documents. In
                                                       other instances, the employee allegedly
In January 2012, an OIG joint investigation            laundered illegally obtained loan proceeds
with the Federal Bureau of Investigation               through the corporate bank accounts of the
resulted in the arrest of a computer programmer        spouse’s auto sales and leasing company. The
who was charged with one count of violating 18         spouse of the employee was named as one of
U.S.C. § 641, Theft of Government Property,            the main co-conspirators in the criminal
for stealing proprietary code from the Federal         enterprise.
Reserve Bank of New York. The individual was
a contract employee assigned to work on                Twelve Indicted and Arrested for Money
further developing a specific portion of the           Laundering and Tobacco Smuggling Scheme
Government-wide Accounting and Reporting
software system owned by Treasury.                     On January 18, 2006, our office received a letter
                                                       from the U.S. Attorney’s Office for the District
If convicted, the individual faces a maximum           of South Carolina, requesting assistance with an
term of 10 years in prison, a maximum term of          investigation into apparent money laundering by
3 years of supervised release, and a fine of the       subjects operating unlicensed and unregistered
greater of $250,000 thousand, or twice the gross       MSBs out of Subway restaurant franchises, a
monetary gain derived from the offense or twice        trucking company, and convenience stores in
the gross monetary loss to the victims.                the Charleston, South Carolina, Metropolitan
                                                       area. In June 2011, the investigation was merged
Eighteen Arrested in Queens, New York in a             with an ongoing Bureau of Alcohol, Tobacco,
$1.9 Million Auto Loan Scheme                          Firearms, and Explosives investigation
                                                       involving illegal tobacco sales. The joint
A multi-year joint investigation with the New          investigation targeted 12 individuals suspected
York Police Department, Organized Crime                of being involved with the scheme.
Control Bureau, Auto Crime Division, resulted
in the indictment and arrest of 18 individuals,        Subsequent law enforcement operations
including an OIG employee, for participating in        resulted in the purchase of 6,888 cases of
a scheme wherein multiple financial institutions       untaxed cigarettes, worth approximately
suffered financial losses of nearly $2 million.        $7.5 million, and the discovery of significant
Specifically, the alleged scheme involved the          amounts of illegal monies.
purchase of high-end vehicles and the use of
“straw borrowers” with good credit scores to
take out $1.9 million in loans in exchange for         17 Washing titles refers to the re-writing, cleaning, erasing,
kickbacks and other incentives. Once the               or deleting of the title so that research into the vehicle’s
vehicles were turned over to members of the            title doesn’t show an owner, which allows the vehicle to
criminal enterprise, the vehicles were then either     be sold in the legitimate market.


                 Treasury Office of Inspector General Semiannual Report—March 2012                                23
                                             Office of Investigations – Significant Investigations

In November 2011, a federal Grand Jury issued
indictments for the 12 individuals in connection       We subsequently provided Treasury
with laws governing stolen property, conspiracy,       information and other investigative resources
transportation of counterfeit goods, and money         regarding benefit payments made to the missing
laundering. The indictment resulted in the             benefits recipient. The assistance provided later
arrests of the 12 individuals in November 2011         led to the arrest of the benefit recipient’s son on
in North Carolina, South Carolina, and New             second degree murder charges after the son
York.                                                  confessed to murdering his father.

U.S. Senior Advisor Repays Improper                    Mint Police Officer Terminated
Allowance
                                                       We completed an investigation concerning
Our office completed an investigation regarding        allegations received from the Department of
an individual under contract with the Office of        Homeland Security OIG. A U.S. Mint Police
Technical Assistance to serve as the U.S. Senior       Officer, at her previous job as a contract
Advisor to the Minister of Finance for Tanzania        detention guard at an Immigration and Customs
and who received an educational allowance to           Enforcement detention facility, had possibly
which he was not entitled. Specifically, the           engaged in narcotics trafficking at the facility
individual obtained approximately $44,000 in           and had a number of potential suitability issues.
educational allowances for a child to attend
school in the U.S. without providing supporting        The Mint employee admitted that she
documentation, and without meeting the                 transported a small amount of marijuana from
educational allowance criteria. The individual         inside the detention facility and delivered the
admitted that he applied for and received the          marijuana to her then significant other. The
education allowance to which the employee was          Mint employee also admitted to suitability issues
not entitled. The U.S. Attorney’s Office               which involved the use of prescription drugs
declined the case for criminal and civil               without a prescription, providing prescription
prosecution. The Office of Technical Assistance        drugs to another individual, and participating in
has entered into settlement with the individual        an assault. As a result of the investigation, the
to recoup the education allowance funds.               Mint employee was terminated.

Individual Arrested for Second Degree Murder           BPD Employee Suspended for Credit Card
after the Office of Investigations Provided            Misuse
Investigative Assistance
                                                       We completed an investigation concerning
In December 2011, the U.S. Secret Service,             allegations that a BPD Accounting Technician
Tampa, Florida Field Office, requested                 misused her assigned government credit card.
investigative assistance from our office to            Specifically, the BPD employee admitted to
obtain financial transaction information for a         misusing her card to obtain cash advances and
Social Security benefits recipient who was             purchases, while not in a travel status. BPD
reported missing to the Hernando County                suspended the employee for 14 days without
Sheriff’s Office.


                 Treasury Office of Inspector General Semiannual Report—March 2012                     24
                                                Office of Investigations – Significant Investigations

pay after the U.S. Attorney’s Office declined             probation, restitution of $169,000, a fine of
prosecution.                                              $1,000, and a special assessment of $100.

                                                          Search Reveals $2.3 Million in Potential Fraud
Following are updates to significant
                                                          As discussed in our September 2011 semiannual
investigative activities reported in prior
                                                          report, an investigation in Atlanta, Georgia, led
semiannual reports.
                                                          to the execution of a federal search and arrest
                                                          warrant during which more than 6,000 victims
Improper Payments/Check Forgery Insurance
                                                          of identity theft were identified along with an
Fund Initiative                                           estimated $2.3 million in fraud against the
                                                          government.
In August 2011, our office embarked upon an
initiative aimed at improper payments made by
                                                          On January 5, 2012, as the result of our
the Treasury Department which impact the
                                                          investigation, an individual was sentenced to
Check Forgery Insurance Fund. Since inception
                                                          65 months in a federal correctional institution,
of this initiative, 19 individuals have been
                                                          3 years of supervised probation, and was
convicted. During this semiannual reporting
                                                          ordered to pay approximately $844,000 in
period, another 5 individuals were charged and
                                                          restitution, after pleading guilty to charges of
arrested.
                                                          Conspiracy to Commit False Claims, Stealing
                                                          Public Money, and Aggravated Identity Theft.
Recently, our office expanded its investigative
efforts to include fraudulent payments made to
                                                          Fraudulent Tax Refund Scheme Utilizing
payees through FMS using the Automated
Clearing House, Electronic Fund Transfer                  Treasury Direct Accounts
payment system, and the Direct Express
                                                          As discussed in our March 2011 semiannual
Program. We are currently working with the
                                                          report, our office investigated a multi-million
Social Security Administration OIG on a task
                                                          dollar fraud involving the use of false identities
force aimed at such improper payments.
                                                          to obtain unwarranted tax refunds through the
                                                          Treasury Direct Program. Since our last
Mint Police Officer Arrested for Workers’
                                                          semiannual report, the subject was convicted by
Compensation Fraud                                        a jury trial on one count of conspiracy to
                                                          commit mail fraud and wire fraud. The
As discussed in our September 2011 semiannual
                                                          individual is facing a sentence of up to 20 years
report, a joint investigation with the
                                                          in prison, $1.5 million in restitution, and
Department of Labor OIG resulted in the arrest
                                                          $250,000 in fines. Sentencing is scheduled for
of a Mint Police Officer for making material
                                                          April 2012.
false statements to obtain over $173,000 in
workers’ compensation payments. In November
2011, the Mint employee pled guilty to one
count of 18 U.S.C. Section 1001, False
Statements. In February 2012, he was sentenced
to 8 months of home incarceration, 3 years


                 Treasury Office of Inspector General Semiannual Report—March 2012                        25
                                             Office of Investigations – Significant Investigations

Management Implication Reports

Mint Security Policy and Procedural Issues

During this reporting period, we issued a
Management Implication Report to the Mint
regarding policy and procedure issues found by
our office during a recent investigation
involving alleged Mint Police Officer
misconduct at Mint Headquarters. Specifically,
our office found that the Mint has contradictory
policy and procedures regarding the procedures
to determine the metal source of a
magnetometer alert. Mint management is
currently reviewing the recommendations.

Treasury Executive Office for Asset Forfeiture
Addressing Security Concerns

As discussed in our September 2011semiannual
report, our office issued a Management
Implication Report to the Treasury Executive
Office for Asset Forfeiture regarding security
concerns found during a recent investigation
involving a theft at one of its warehouses.

During this reporting period, Treasury
Executive Office for Asset Forfeiture
management responded that they immediately
increased video recording capacity, increased
cage awareness, and restricted vault access. The
office also set aside additional funding to
enhance security once the U.S. Customs and
Border Protection completes a security
assessment of the warehouses, and for the
installation of Homeland Security Presidential
Directive 12 badge access control system and
reading devices.




                 Treasury Office of Inspector General Semiannual Report—March 2012             26
                                                        assistance through the Community
Other OIG Accomplishments                               Development Financial Institutions Fund; as
and Activity                                            well as promoting national security and other
                                                        U.S. interests through multilateral financial
Inspector General Testimony on Programs and             institutions. Mr. Thorson made the observation
Operations Under Treasury OIG                           that these were an extremely diverse group of
                                                        responsibilities performed by relatively few
                                Inspector General       people. (Pictured is the Honorable Eric M. Thorson,
                                Thorson testified       Inspector General, Department of the Treasury)
                                before the U.S.
                                House of                OIG Audit Leadership Roles
                                Representatives
                                Committee on            Treasury OIG’s audit professionals actively
                                Appropriations          support and serve on various important public
                                Subcommittee on         and private professional organizations
                                Financial Services      supporting the federal audit community.
                                and General             Examples of participation in these organizations
                                Government on           follow:
                                March 7, 2012. He
provided Subcommittee an overview of                    Marla Freedman, Assistant Inspector General
Treasury’s more significant programs and                for Audit, serves as co-chair of the Federal
operations under Treasury OIG’s jurisdiction as         Audit Executive Council’s (FAEC) Professional
well as his perspective on the most serious             Development Committee which is actively
management and performance challenges facing            involved in auditor training and development
the Department. Inspector Thorson informed              matters.
the Subcommittee that Treasury’s fiscal year
2013 budget request, absent the IRS and those           Bob Taylor, Deputy Assistant Inspector
funds allocated for the three Inspectors                General for Performance Audits, and Kieu
General, is approximately $35 million less than         Rubb, Audit Director, are leading an FAEC
last year, but continues to support an expansive        project to update the Council of the Inspectors
and critical level of responsibilities to be carried    General on Integrity and Efficiency (CIGIE)
out by approximately 4,800 full-time equivalent         Audit Committee’s external peer review guide.
employees. He described Treasury’s                      The update will incorporate changes in the 2011
responsibilities including, among other things,         Revision to the Government Auditing Standards.
leading the Nation’s fight against terrorist            Mr. Taylor and Ms. Rubb also served as
financing and money laundering; administering           facilitators for a February 2012 training course
foreign sanction programs; managing the                 on the external peer review guide held at the
trillions of dollars in federal collections and         National Science Foundation.
payments; maintaining government-wide
financial accounting records; managing and              Joel Grover, Deputy Assistant Inspector
accounting for the public debt; collecting annual       General for Financial Management and
tax revenues of $24 billion on alcohol, tobacco,        Information Technology Audits, serves as co-
and other products; providing domestic                  chair of the FAEC’s Financial Statements

                  Treasury Office of Inspector General Semiannual Report—March 2012                      27
                                                       Other OIG Accomplishments and Activity

Committee which develops and coordinates the
council’s positions on a variety of accounting
and auditing issues related to federal financial
reporting. Additionally, Mr. Grover serves as a
co-chair of the Maryland Association of
Certified Public Accountants Members in
Government Committee.

Jeff Dye, Audit Director, regularly taught
modules of the Introductory Auditor Course
sponsored by the CIGIE Training Institute’s
Audit, Inspection, and Evaluation Academy.




                 Treasury Office of Inspector General Semiannual Report—March 2012         28
Statistical Summary
Summary of OIG Activity
For the 6 months ended March 31, 2012

                                                                                            Number or
OIG Activity                                                                                Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                      1
Instances where information was refused                                                                 1
Office of Audit Activities
Reports issued and other products                                                                      47
Disputed audit recommendations                                                                          0
Significant revised management decisions                                                                0
Management decision in which the Inspector General disagrees                                            0
Monetary benefits (Office of Audit)
Questioned costs                                                                                        0
Funds put to better use                                                                                 0
Revenue enhancements                                                                                    0
Total monetary benefits                                                                                 0

Office of Small Business Lending Fund Program Oversight
Reports issued and other products                                                                       2
Disputed audit recommendations                                                                          0
Significant revised management decisions                                                                1
Management decision in which the Inspector General disagrees                                            0
Office of Investigations Activities
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                       45
Cases accepted for prosecution and/or litigation                                                       24
Arrests                                                                                                18
Indictments/informations                                                                               12
Convictions (by trial and plea)                                                                        21



Significant Unimplemented Recommendations
For reports issued prior to April 1, 2011

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management.




                        Treasury Office of Inspector General Semiannual Report—March 2012              29
                                                                                  Statistical Summary

Number        Date     Report Title and Recommendation Summary
OIG-06-030    05/06    Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                       Bank Secrecy Act Data but Challenges Remain
                       FinCEN should enhance the current FinCEN database system or acquire a
                       new system. An improved system should provide for complete and accurate
                       information on the case type, status, resources, and time expended in
                       performing the analysis. This system should also have the proper security
                       controls to maintain integrity of the data. (1 recommendation)


OIG-09-027    1/09     Management Letter for Fiscal Year 2008 Audit of the Office of the Comptroller of the
                       Currency’s Financial Statements
                       OCC should continue to dedicate resources to fully implement the necessary
                       System Management Server process automatically and promptly detect and
                       remove unauthorized personal and public domain software from OCC
                       systems (workstations) and implement controls to restrict users from
                       downloading and installing unapproved software. (1 recommendation)


OIG-10-001    10/09    Safety and Soundness: Material Loss Review of TeamBank, National Association
                       OCC should emphasize to examiners the need to ensure that banks conduct
                       transactional and portfolio stress testing when appropriate.
                       (1 recommendation)



OIG-10-025    12/09    Management Letter for Fiscal Year 2009 Audit of the Office of the Comptroller of the
                       Currency’s Financial Statements
                       OCC should continue with its plan to implement a software solution to
                       restrict users from installing and executing unauthorized software on OCC
                       workstations. (1 recommendation)


OIG-10-035    2/10     Management Letter for Fiscal Year 2009 Audit of the Department of the Treasury
                       Financial Statements
                       The Chief Information Officer, with input from the Office of the Deputy
                       Chief Financial Officer (CFO), should implement the use of Secure Sockets
                       Layer for the Treasury Department’s Information Executive Repository and
                       CFO Vision applications. (1 recommendation)




             Treasury Office of Inspector General Semiannual Report—March 2012                            30
                                                                                       Statistical Summary

OIG-11-036        11/10     Information Technology: Treasury is Generally in Compliance with Executive Order
                            13103
                            The Chief Information Officer should (1) Revise Treasury Directive (TD)
                            85-02 to define authorized software more specifically, require heads of
                            bureaus and offices to ensure that software in their inventory is on the
                            Treasury list of authorized software and remove it if it is not, require the
                            Chief Information Officer to perform periodic audit checks to determine if
                            the bureaus and offices are only using software on the Treasury list of
                            authorized software, and require the bureaus and offices to reconcile their
                            inventory with software license agreements rather than with software
                            purchases; (2) develop procedures to create and manage a list of approved
                            enterprise authorized software; (3) maintain an accurate inventory of
                            installed software; (3) ensure that bureaus remove unauthorized software
                            from Treasury systems; (5) establish and implement department-wide
                            procedures for auditing and tracking software licenses; and (6) complete
                            deployment of the software management tool. (6 recommendations)


OIG-11-046        12/10     Management Letter for Fiscal Year 2010 Audit of the Office of the Comptroller of the
                            Currency’s Financial Statements
                            OCC should continue with its plan to implement a software solution to
                            restrict users from installing and executing unauthorized software on OCC
                            workstations. (1 recommendation)


OIG-11-057        1/11      The Failed and Costly BSA Direct R&S System Development Effort Provides
                            Important Lessons for FinCEN’s BSA Modernization Project
                            FinCEN should ensure that adequate contract and financial records are
                            maintained for the current BSA modernization projects to allow for audit as
                            well as accurate reporting to FinCEN management, Treasury’s Office of the
                            Chief Information Officer, and the Congress. (1 recommendation)



Summary of Instances Where Information Was Refused
October 1, 2011, through March 31, 2012

There is one matter where we believe that we are being denied the assistance and cooperation of a
federal banking regulator in connection with our audit responsibilities. Specifically, the FRB has denied
us access to information needed for the audit of Treasury’s SBLF investment and withdrawal decisions.
As part of its mandated oversight responsibilities for the SBLF program, the OIG requested bank


                 Treasury Office of Inspector General Semiannual Report—March 2012                             31
                                                                                            Statistical Summary

examinations from FRB to help it determine whether the regulator had fully disclosed all relevant
supervisory information for FRB-regulated institutions seeking SBLF funding. The requested
information was to be used for an ongoing audit of late-entry institutions into the SBLF program. FRB
had provided examination reports requested for our prior audit, Small Business Lending Fund: Soundness of
Investment Decisions Regarding Early-Entry Institutions into the SBLF Program, OIG-SBLF-12-002 (Feb. 17,
2012), in which we found that federal banking regulators, including the FRB, had failed to fully disclose
confidential supervisory information set forth in examination reports about SBLF applicants during
Treasury’s evaluation process. However, in response to our current audit request, and citing
12 C.F.R. § 261.21(d), FRB stated that we had not demonstrated the requisite need for FRB to disclose
confidential supervisory information. FRB’s argument in denying the information was that since it had
not provided the reports of examination to Treasury, it did not need to provide them to OIG. We have
since made another request for the information, asking that the examination reports be made available
under FRB’s discretionary disclosure authority outlined in 12 C.F.R. § 261.20(e), as FRB had directed
should be done for all SBLF program requests. FRB has not responded to our second request. Our
inability to obtain the examination reports has created a major scope limitation for the audit, preventing
us from determining whether FRB had fully disclosed all supervisory information to Treasury for FRB-
banks applying for SBLF funding.



Listing of Audit Products Issued
October 1, 2011, through March 31, 2012

Office of Audit

Financial Audits and Attestation Engagement
Audit of the Office of Thrift Supervision's Financial Statement for the Periods October 1, 2010 through July 20, 2011
and October 1, 2009 through September 30, 2010, OIG-12-001, 10/17/2011

Audit of the United States Mint's Schedule of Custodial Deep Storage Gold and Silver Reserves as of September 30,
2011 and 2010, OIG-12-002, 10/21/2011

Financial Management: Report on the Bureau of the Public Debt Trust Fund Management Branch Schedules for Selected
Trust Funds as of and for the Year Ended September 30, 2011, OIG-12-003, 11/5/2011

Audit of the Federal Financing Bank's Fiscal Years 2011 and 2010 Financial Statements, OIG-12-009, 11/15/11

Management Letter for the Audit of the Federal Financing Bank's Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-010, 11/15/11

Audit of the Community Development Financial Institutions Fund's Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-011, 11/15/11


                   Treasury Office of Inspector General Semiannual Report—March 2012                                    32
                                                                                           Statistical Summary

Audit of the Financial Management Service's Fiscal Years 2011 and 2010 Schedules of Non-Entity Government-Wide
Cash, OIG-12-012, 11/15/11

Audit of the Financial Management Service's Fiscal Years 2011 and 2010 Schedules of Non-Entity Assets, Non-
Entity Costs and Custodial Revenue, OIG-12-014, 11/15/11

Audit of the Department of the Treasury's Fiscal Years 2011 and 2010 Financial Statements, OIG-12-015,
11/15/11

Audit of the Department of the Treasury’s Special-Purpose Financial Statements for Fiscal Years 2011 and 2010,
OIG-12-016, 11/15/11

Audit of the United States Mint's Fiscal Years 2011 and 2010 Financial Statements, OIG-12-019, 12/5/11

Management Letter for the Audit of the United States Mint's Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-020, 12/5/11

Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-021, 12/6/11

Management Letter for the Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years 2011 and 2010
Financial Statements, OIG-12-022, 12/6/11

Audit of the Exchange Stabilizations Fund's Fiscal Years 2011 and 2010 Financial Statements, OIG-12-023,
12/7/11

Audit of the Financial Crimes Enforcement Network's Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-024, 12/8/11

Management Report for the Audit of the Financial Management Service's Fiscal Years 2011 and 2010 Schedules of
Non-Entity Government-wide Cash, OIG-12-025, 12/9/11

Management Report for the Audit of the Financial Management Service's Fiscal Years 2011 and 2010 Schedules of
Non-Entity Assets, Non-Entity Costs and Custodial Revenue, OIG-12-026, 12/13/11

Audit of the Office of the Comptroller of the Currency's Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-027, 12/16/11

Management Letter for the Audit of the Office of the Comptroller of the Currency's Fiscal Years 2011 and 2010
Financial Statements, OIG-12-028, 12/16/11

Audit of the Office D.C. Pensions' Fiscal Years 2011 and 2010 Financial Statements, OIG-12-029, 12/16/11




                   Treasury Office of Inspector General Semiannual Report—March 2012                             33
                                                                                         Statistical Summary

Audit of the Bureau of Engraving and Printing's Fiscal Years 2011 and 2010 Financial Statements, OIG-12-030,
12/16/11

Management Letter for the Audit of the Office D.C. Pensions' Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-031, 12/16/11

Management Letter for the Audit of the Bureau of Engraving and Printing's Fiscal Years 2011 and 2010 Financial
Statements, OIG-12-032, 12/19/11

Audit of the Alcohol and Tobacco Tax & Trade Bureau's Fiscal Years 2011 and 2010 Financial Statements,
OIG-12-034, 12/21/11

Information Technology Audits and Evaluations
Information Technology: Fiscal Year 2011 Audit of Treasury's Federal Information Security Management Act
Implementation for its Collateral National Security Systems, OIG-12-006, 11/9/11

Information Technology: The Department of the Treasury Federal Information Security Management Act Fiscal Year
2011 Audit, OIG-12-008, 11/10/11

Performance Audits – Material Loss and In-depth Reviews of Failed Banks
Safety and Soundness: Material Loss Review of Superior Bank, OIG-12-017, 11/16/11 (closed April 15, 2011;
estimated loss to the DIF - $290 million)

Safety and Soundness: Material Loss Review of Amcore Bank, N.A., OIG-12-035, 12/28/11 (closed April 23,
2010; estimated loss to the DIF - $154.5 million)

Safety and Soundness: In-Depth Review of Unity National Bank, OIG-12-036, 1/10/12 (closed March 26, 2010;
estimated loss to the DIF - $71 million)

Safety and Soundness: Material Loss Review of Corus Bank, N.A, OIG-12-037, 1/24/12 (closed February 11,
2009; estimated loss to the DIF - $797.9 million)

Safety and Soundness: Material Loss Review of Riverside National Bank of Florida, OIG-12-039, 1/30/12 (closed
April 16, 2010, estimated loss to the DIF - $240.9 million)

Safety and Soundness: Material Loss Review of Republic Federal Bank, N.A, OIG-12-040, 2/7/12 (closed
December 11, 2009; estimated loss to the DIF - $120.6 million)

Safety and Soundness: Material Loss Review of First National Bank of Georgia, OIG-12-041, 2/14/12 (closed
January 29, 2010; estimated loss to the DIF - $240.2 million)

Safety and Soundness: Material Loss Review of Pacific Coast National Bank, San Clemente, California, OIG-12-042,
2/27/12 (closed November 13, 2009; estimated loss to the DIF - $29.8 million)


                  Treasury Office of Inspector General Semiannual Report—March 2012                              34
                                                                                         Statistical Summary

Safety and Soundness: Reviews of Failed National Banks Owned by First Bank of Oak Park Corporation,
OIG-12-043, 3/1/12 (closed October 30, 2009; estimated loss to the DIF $2 billion)

Safety and Soundness: Material Loss Review of Lydian Private Bank, OIG-12-045, 3/21/12 (closed August 19,
2011; estimated loss to the DIF $292.1 million)

Performance Audits – Reviews of Failed Banks Pursuant to Section 987 of the Dodd-
Frank Act
Safety and Soundness: Failed Bank Review of the First National Bank of Florida, OIG-12-004, 11/9/11 (closed
September 9, 2011; estimated loss to the DIF - $48.4 million)

Safety and Soundness: Failed Bank Review of First Southern National Bank, OIG-12-005, 11/9/11 (closed
August 19, 2011; estimated loss to the DIF - $39.6 million)

Safety and Soundness: Failed Bank Review of BankMeridian, National Association, OIG-12-007, 11/9/11 (closed
July 29, 2011; estimated loss to the DIF - $65.4 million)

Safety and Soundness: Failed Bank Review of First National Bank of Olathe, Olathe, Kansas, OIG-12-033,
12/20/2011 (closed August 12, 2011; estimated loss to the DIF - $118.6 million)

Other Performance Audits
Coin Manufacturing: Mint's Coin Exchange Program Lacked Proper Controls, OIG-12-018, 11/22/11

Bill Manufacturing: Improved Planning and Production Oversight Over NexGen $100 Note Is Critical, OIG-12-038,
1/24/12

The Department of the Treasury Was Not in Compliance With the Improper Payments Elimination and Recovery Act
for Fiscal Year 2011, OIG-12-044, 3/15/12

Status of the Transfer of Office of Thrift Supervision Functions, OIG-12-046, 3/21/12

Terrorist Financing/Money Laundering: FinCEN’s BSA IT Modernization Program Is on Schedule and Within Cost,
But Requires Continued Attention to Ensure Successful Completion, OIG-12-047, 3/26/12

Evaluations and Other Products
Statement of the Honorable Eric M. Thorson, Inspector General, Department of the Treasury, Before the House
Committee on Appropriations, Subcommittee on Financial Services and General Government (Budget Hearing:
Treasury OIG and TIGTA), OIG-CA-12-004, 3/7/2012




                  Treasury Office of Inspector General Semiannual Report—March 2012                            35
                                                                                                    Statistical Summary

Office of SBLF Program Oversight
Small Business Lending Fund: Treasury Should Consider Supervisory Concerns Regarding Participant Management and
Historical Retained Earnings When Estimating the Cost of the SBLF Program, OIG-SBLF-12-001, 12/22/11

Small Business Lending Fund: Soundness of Investment Decisions Regarding Early-Entry Institution into the SBLF
Program, OIG-SBLF-12-002, 2/17/12



Audit Reports Issued With Questioned Costs
October 1, 2011, through March 31, 2012

                                                                               Total         Total            Total
                                                                               No. of        Questioned       Unsupported
Category                                                                       Reports       Costs            Costs
For which no management decision had been made by beginning of reporting
period                                                                                   3       $2,088,340                 0
Which were issued during the reporting period                                            0               $0                 0
  Subtotals                                                                              3       $2,088,340                 0
For which a management decision was made during the reporting period                     2           $7,888                 0
  Dollar value of disallowed costs                                                       2           $7,888                 0
  Dollar value of costs not disallowed                                                   0               $0                 0
For which no management decision was made by the end of the reporting period             1       $2,080,452                 0
For which no management decision was made within 6 months of issuance                    0                0                 0




Audit Reports Issued With Recommendations That Funds Be Put to Better
Use
October 1, 2011, through March 31, 2012

At the beginning of the period, there were no audit reports from prior periods pending a management
decision on recommendations that funds be put to better use. There were also no audit reports issued
during this period with recommendations that funds be put to better use.




                      Treasury Office of Inspector General Semiannual Report—March 2012                                 36
                                                                                     Statistical Summary

Previously Issued Audit Reports Pending Management Decisions (Over
6 Months)
We have one previously issued audit report pending a management decision: Audit of EcoGrove Wind
LLC Payment Under 1603 Program, OIG-11-103, dated September 19, 2011, with $2,080,452 in
questioned costs. The Office of the Fiscal Assistant Secretary is exploring the issues to determine if the
reimbursement is warranted.



Significant Revised Management Decisions
October 1, 2011, through March 31, 2012

The Office of Small Business Lending Fund Program Oversight issued a report, State Small Business
Credit Initiative: Treasury Needs to Strengthen State Accountability for Use of Funds (OIG-SBLF-11-002), which
recommended that Treasury require participating states to disclose oversight efforts taken to provide
Treasury with the required program compliance assurances. At the time the report was issued,
management disagreed that additional steps were needed, believing that state certifications
accompanying quarterly reports provided sufficient assurance that states were providing the required
oversight. However, management revised its decision and recently published national compliance
standards to clarify its expectations for state oversight of program funds. We find these efforts to be
responsive to our recommendation and believe they will enhance participating states’ overall compliance
with program requirements.



Significant Disagreed Management Decisions
October 1, 2011, through March 31, 2012

There were no management decisions this period with which the IG was in disagreement.



Peer Reviews
October 1, 2011, through March 31, 2012

Office of Audit

Audit organizations that perform audits and attestation engagements of federal government programs
and operations are required by Government Auditing Standards to undergo an external peer review every
3 years. The objective of an external peer review is to determine whether, during the period under
review, the audit organization’s system of quality control was suitably designed and whether the audit


                  Treasury Office of Inspector General Semiannual Report—March 2012                         37
                                                                                 Statistical Summary

organization was complying with its quality control system in order to provide the audit organization
with reasonable assurance that it was conforming to applicable professional standards.

No external peer reviews were conducted of the Treasury OIG Office of Audit during this semiannual
period. The date of the last external peer review of the Treasury OIG was November 19, 2009, and was
conducted by the Department of State OIG. Treasury OIG received a peer review rating of pass. There
are no outstanding recommendations from this external peer review. A copy of the Department of State
OIG’s external peer review report is available on our website at www.treasury.gov/about/organizational-
structure/ig/Documents/Treasury%20OIG%20Peer%20Review%20Final%202009.pdf.

No external peer reviews of another federal audit organization were conducted by our office during this
semiannual reporting period. There are no outstanding recommendations from the previous peer review
conducted by our office. That peer review was conducted on the National Aeronautics and Space
Administration OIG’s audit organization and was completed June 30, 2010.

Office of Investigations

CIGIE has directed that the investigative law enforcement operations of all OIG undergo peer reviews
every 3 years in order to ensure compliance both with (1) the CIGIE Quality Standards for Investigations
and with (2) the relevant guidelines established by the Office of the Attorney General for the U.S. In
March 2011, the Small Business Administration's OIG conducted a peer review of our office and found
our office to be in compliance with all relevant guidelines. There are no unaddressed recommendations
outstanding from this review.

In January 2011, Treasury OIG conducted a peer review of the OIG for the Department of the Interior.
Our review found the Department of the Interior's Office of Investigations to be in compliance with all
relevant guidelines. There are no unaddressed recommendations outstanding from our January 2011
review.




                 Treasury Office of Inspector General Semiannual Report—March 2012                      38
Bank Failures and Nonmaterial Loss Reviews
We conducted reviews of 5 failed banks with losses to the DIF that did not meet the definition of a
material loss in the Federal Deposit Insurance Act. These reviews were performed to fulfill the
requirements found in Section 987 of Dodd-Frank. As redefined in Dodd-Frank, the term “material”
loss which, in turn, triggers a material loss review to be performed is, for 2010 and 2011, a loss to the
DIF that exceeds $200 million; for 2012 and 2013, a loss to the DIF that exceeds $150 million; and, for
2014 going forward, a loss to the DIF that exceeds $50 million (with provisions to increase that trigger
to a loss that exceeds $75 million under certain circumstances).

For losses that are not material, Section 987 requires that each 6-month period, the OIG of the federal
banking agency to (1) identify the estimated losses that have been incurred by the DIF during that
6-month period and (2) determine the grounds identified by the failed institution’s regulator for
appointing the FDIC as receiver, and whether any unusual circumstances exist that might warrant an in-
depth review of the loss. For each 6-month period, we are also required to prepare a report to the failed
institution’s regulator and the Congress that identifies (1) any loss that warrants an in-depth review,
together with the reasons why such a review is warranted and when the review will be completed; and
(2) any losses where we determine no in-depth review is warranted, together with an explanation of how
we came to that determination. The table below fulfills this reporting requirement to the Congress for
the 6-month period ended March 31, 2012. We issue separate audit reports on each review.

Bank Failures and Nonmaterial Loss Reviews

                                  Date
                                  Closed/Loss                                                                   Reason/
                                  to the                                                                        Anticipated
                                  Deposit               OIG Summary of                          In-Depth        Completion Date of
                                  Insurance             Regulator’s Grounds                     Review          the In-Depth
Bank Name/Location                Fund                  for Receivership                        Determination   Review
Regulator – Office of the Comptroller of the Currency
Western National Bank               December 16, 2011   • Dissipation of assets and earnings    No              No unusual circumstances noted.
Phoenix, Arizona                    $37.6 million         due to unsafe and unsound                             However, our review revealed
                                                          practices                                             certain questionable practices by
                                                        • Capital impaired                                      Western National management
                                                        • Failed to submit acceptable capital                   that were referred by our auditors
                                                          restoration plan                                      to the OIG Office of
                                                                                                                Investigations
American Eagle Savings Bank       January 20, 2012      • Dissipation of assets and earnings    No              No unusual circumstances noted
Boothwyn, Pennsylvania            $3.2 million            due to unsafe and unsound
                                                          practices
                                                        • Capital impaired
                                                        • Failed to submit acceptable capital
                                                          restoration plan
Charter National Bank and Trust   February 10, 2012     • Dissipation of assets and earnings    No              No unusual circumstances noted
Hoffman Estates, Illinois         $17.4 million           due to unsafe and unsound
                                                          practices
                                                        • Capital impaired
                                                        • Failed to submit acceptable capital
                                                          restoration plan




                          Treasury Office of Inspector General Semiannual Report—March 2012                                                  39
                                                                     Bank Failures and Nonmaterial Loss Reviews

Bank Failures and Nonmaterial Loss Reviews

                                Date
                                Closed/Loss                                                                  Reason/
                                to the                                                                       Anticipated
                                Deposit             OIG Summary of                           In-Depth        Completion Date of
                                Insurance           Regulator’s Grounds                      Review          the In-Depth
Bank Name/Location              Fund                for Receivership                         Determination   Review
SBC Bank                        February 10, 2012   • Dissipation of assets and earnings     No              No unusual circumstances noted
Shelbyville, Indiana            $33.9 million         due to unsafe and unsound
                                                      practices
                                                    • Capital impaired
                                                    • Failed to submit acceptable capital
                                                      restoration plan
Home Savings of America         February 24, 2012   • Assets are less than its obligations   No              No unusual circumstances noted
Little Falls, Minnesota         $38.8 million         to its creditors
                                                    • Dissipation of assets and earnings
                                                      due to unsafe and unsound
                                                      practices
                                                    • Capital impaired
                                                    • Failed to submit acceptable capital
                                                      restoration plan




                          Treasury Office of Inspector General Semiannual Report—March 2012                                            40
References to the Inspector General Act
                                                                 Requirement                                                         Page(s)
Section 4(a)(2)    Review of legislation and regulations                                                                                    29
Section 5(a)(1)    Significant problems, abuses, and deficiencies                                                                         8-26
Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and deficiencies                                         8-26
Section 5(a)(3)    Significant unimplemented recommendations described in previous semiannual reports                                    29-31
Section 5(a)(4)    Matters referred to prosecutive authorities                                                                              29
Section 5(a)(5)    Summary of instances where information was refused                                                                    31-32
Section 5(a)(6)    List of audit reports                                                                                                 32-36
Section 5(a)(7)    Summary of significant reports                                                                                         8-26
Section 5(a)(8)    Audit reports with questioned costs                                                                                      36
Section 5(a)(9)    Recommendations that funds be put to better use                                                                          36
Section 5(a)(10)   Summary of audit reports issued before the beginning of the reporting period for which no management decision            37
                   had been made
Section 5(a)(11)   Significant revised management decisions made during the reporting period                                                37
Section 5(a)(12)   Management decisions with which the Inspector General is in disagreement                                                 37
Section 5(a)(13)   Instances of unresolved Federal Financial Management Improvement Act noncompliance                                       10
Section 5(a)(14)   Results of peer reviews conducted of Treasury OIG by another OIG                                                      37-38
Section 5(a)(15)   List of outstanding recommendations from peer reviews                                                                 37-38
Section 5(a)(16)   List of peer reviews conducted by Treasury OIG, including a list of outstanding recommendations from those peer       37-38
                   reviews
Section 5(d)       Serious or flagrant problems, abuses, or deficiencies                                                                   N/A
Section 6(b)(2)    Report to Secretary when information or assistance is unreasonably refused                                            31-32




                            Treasury Office of Inspector General Semiannual Report—March 2012                                              41
Abbreviations
BEP            Bureau of Engraving and Printing
BPD            Bureau of the Public Debt
BSA            Bank Secrecy Act
CDFI Fund      Community Development Financial Institutions Fund
CIGFO          Council of Inspectors General on Financial Oversight
CIGIE          Council of the Inspectors General on Integrity and Efficiency
DIF            Deposit Insurance Fund
Dodd-Frank     Dodd-Frank Wall Street Reform and Consumer Protection Act
EESA           Emergency Economic Stabilization Act
FAEC           Federal Audit Executive Council
FBOP           First Bank of Oak Park Corporation
FDIC           Federal Deposit Insurance Corporation
FinCEN         Financial Crimes Enforcement Network
FISMA          Federal Information Security Management Act
FMS            Financial Management Service
FRB            Board of Governors of the Federal Reserve System
FSOC           Financial Stability Oversight Council
GAO            Government Accountability Office
GSE            government sponsored enterprise
HERA           Housing and Economic Recovery Act
IPERA          Improper Payments Elimination and Recovery Act
IRS            Internal Revenue Service
IT             information technology
KPMG           KPMG LLP
MLR            material loss review
MSB            money services businesses
NIST           National Institutes of Standards
OCC            Office of the Comptroller of the Currency
OIG            Office of Inspector General
OMB            Office of Management and Budget
OTS            Office of Thrift Supervision
PCA            Prompt Corrective Action
Plan           Joint Implementation Plan
Recovery Act   American Recovery and Reinvestment Act of 2009
SBLF           Small Business Lending Fund
SSBCI          State Small Business Credit Initiative
TARP           Troubled Asset Relief Program
TIGTA          Treasury Inspector General for Tax Administration
WebCBRS        Web-based Currency Banking & Retrieval System



                       Treasury Office of Inspector General Semiannual Report—March 2012   42
View of Albert Gallatin statue from north side of the Treasury building in Washington, D.C.

 Born to an aristocratic Swiss family, Albert Gallatin (1761 - 1849) emigrated from Switzerland
  to America in 1780. Elected to the House of Representatives in 1795 and served until 1801,
     Gallatin fought constantly with the independent minded first Secretary of the Treasury
 Alexander Hamilton. He was responsible for the law of 1801 requiring an annual report by the
  Secretary of the Treasury, and he submitted the first one later that year as Secretary. He also
      helped create the powerful House Ways and Means Committee to assure Treasury's
 accountability to Congress by reviewing the Department's annual report concerning revenues,
   debts, loans, and expenditures. Appointed Secretary of the Treasury in 1801 by President
   Jefferson and continued under President James Madison until 1814, Gallatin was in office
          nearly 13 years, the longest term of any Secretary in the Department's history.
                (Source: www.treasury.gov/about/history/Pages/agallatin.aspx)
                  Treasury Office of Inspector General Semiannual Report—March 2012                 43
         

     
            contact us
                                        
    Office of Inspector General
    1500 Pennsylvania Avenue, N.W.
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Office of Small Business Lending
    Fund Program Oversight
    1425 New York Avenue, Suite 5041
    Washington, D.C. 20220
    Phone: (202) 622-1090;
     Fax: (202) 927-5421

    Office of Audit
    740 15th Street, N.W., Suite 600
    Washington, D.C. 20220
    Phone: (202) 927-5400;
    Fax: (202) 927-5379

    Office of Investigations
    1425 New York Avenue, Suite 5041
    Washington, D.C. 20220
    Phone: (202) 927-5260;
    Fax: (202) 927-5421

    Office of Counsel
    740 15th Street, N.W., Suite 510
                                           Treasury OIG Hotline
    Washington, D.C. 20220                 Call Toll Free: 1.800.359.3898
    Phone: (202) 927-0650;
    Fax: (202) 927-5418
                                           Treasury OIG Web Page
    Office of Management
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220                 OIG reports and other information are now available via the
    Phone: (202) 927-5200;                 Internet. The address is
    Fax: (202) 927-6492
                                           http://www.treasury.gov/about/organizational-
                                           structure/ig/Pages/default.aspx  
    Boston Audit Office
    408 Atlantic Avenue, Room 330
    Boston, Massachusetts 02110-3350
    Phone: (617) 223-8640;
    Fax: (617) 223-8651
